<html>
<title> - BEYOND ISIS: COUNTERING TERRORISM, RADICALIZATION, AND PROMOTING STABILITY IN NORTH AFRICA</title>
<body><pre>[Senate Hearing 115-629]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-629

                   BEYOND ISIS: COUNTERING TERRORISM,
                     RADICALIZATION, AND PROMOTING
                       STABILITY IN NORTH AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON NEAR EAST,
                        SOUTH ASIA, CENTRAL ASIA
                          AND COUNTERTERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                              __________

                           DECEMBER 6, 2017
                              __________

       Printed for the use of the Committee on Foreign Relations
       
       
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
       
       
                   Available via the World Wide Web:
                       http://www.govinfo.gpo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-687 PDF                 WASHINGTON : 2019





                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



             SUBCOMMITTEE ON NEAR EAST, SOUTH ASIA,        
               CENTRAL ASIA, AND COUNTERTERRORISM        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 TIM KAINE, Virginia
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
ROB PORTMAN, Ohio                    CORY A. BOOKER, New Jersey




                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator from Idaho....................     1


Hon. Nathan Sales, Ambassador-at-Large, Coordinator for 
  Counterterrorism, U.S. Department of State, Washington, DC.....     2

    Prepared statement...........................................     4

    Responses to Additional Questions for the Record Submitted by 
      Senator Robert Menendez....................................    26

    Responses to Additional Questions for the Record Submitted by 
      Senator Edward J. Markey...................................    35

    Responses to Additional Questions for the Record Submitted by 
      Senator Cory A. Booker.....................................    37


Hon. Joan Polaschik, Principal Deputy Assistant Secretary, Bureau 
  of Near Eastern Affairs, U.S. Department of State, Washington, 
  DC.............................................................     7

    Prepared statement...........................................     8

    Responses to Additional Questions for the Record Submitted to 
      Senator James E. Risch.....................................    23

    Responses to Additional Questions for the Record Submitted by 
      Senator Tim Kaine..........................................    28

    Responses to Additional Questions for the Record Submitted by 
      Senator Cory A. Booker.....................................    41




                             (iii)        

 
                   BEYOND ISIS: COUNTERING TERRORISM,
                     RADICALIZATION, AND PROMOTING
                       STABILITY IN NORTH AFRICA

                              ----------                              


                      WEDNESDAY, DECEMBER 6, 2017

                               U.S. Senate,
            Subcommittee on Near East, South Asia, 
                 Central Asia and Counterterrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the subcommittee, presiding.
    Present: Senators Risch [presiding], Johnson, Young, Kaine, 
Murphy, and Booker.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. I am going to call the meeting of the 
subcommittee to order. Thank you all for coming today.
    A couple of things to start with, number one, we are going 
to have votes starting at 3 o'clock. We will deal with that 
when we have to deal with that.
    The second thing is, this committee does not meet as 
frequently as many other committees, the primary reason being 
that the issues that we deal with are of sufficient magnitude 
that they are generally dealt with by the whole committee. So 
either this committee wraps itself around the other or vice 
versa, depending upon how you look at it.
    But in any event, we really deemed that this was an 
appropriate subject, however, for this subcommittee. Obviously, 
the complexity of dealing with the issues on North Africa are 
certainly worthy of our consideration, thus, the meeting today. 
And we have a very good panel to help us deal with this, people 
who deal with this all the time.
    So thank you all for being here.
    Ambassador Sales, I know your travel schedule has been 
quite robust. And as a result of that, I appreciate you 
accommodating us, to actually be able to be here yourself 
today.
    North Africa is an important region for the United States, 
as well as transatlantic security. Several years ago, we 
watched the Arab Spring begin in Tunisia and then spread across 
the Middle East. People in the region wanted a better life and 
were clearly tired with the slow pace of change. Despite their 
aspirations, the pace of change has not met their expectations.
    Today, we still see weak institutions, and strong leaders 
make change difficult. And in the process, safe havens continue 
to exist for terrorists.
    The region, especially Morocco and Tunisia, has seen a 
significant number of their people, of their citizens, join 
ISIS in Iraq and Syria. Now these fighters pose a threat as 
they return to the region, to their own homeland.
    Morocco and Algeria have strong institutions to collaborate 
with the United States. In Tunisia, the Government is stable, 
but still fragile, and requires a commitment to help build 
their institutional capacity.
    ISIS's increased presence in the Sinai is troubling, to say 
the least. The attacks against Coptic Christians and Muslims, 
like the recent mosque attack, highlight how large a threat 
ISIS still is in the region.
    In Libya, we see rival factions and weak institutions 
undermine the capacity to govern the country, leaving few 
partners to work with in the fight against terrorism. The 
byproduct is freedom of movement for terrorists to plan, train, 
and finance their activities.
    At the same time, countries around the region are competing 
for influence and power rather than helping the domestic 
leaders build capacity and effective institutions to govern 
their own country. This only undermines counterterrorism 
efforts.
    However, this challenge is not something that can be 
confronted solely through military force. Targeted U.S. 
airstrikes have been helpful, but political resolution in Libya 
is vital to building long-term partner capacity and actually 
rooting out terrorism.
    If factionalism persists, we will never get beyond military 
action.
    Also, I worry that the broader region is becoming not just 
a training ground for terrorist camps, but a base of operation 
as deeper affiliations with international terrorist 
organizations are growing. This has profound implications for 
European security, as smuggling and extremists themselves cross 
the Mediterranean into Europe.
    There is an opportunity for the United States to partner 
with our allies in Europe and the gulf to help bring more 
stability to the region, and I look forward to hearing our 
witnesses help explain how we can accomplish this challenging 
task.
    I know that Senator Kaine wants badly to join us today, but 
like all of us, he has challenges, and he is going to be here. 
So we will look forward to his opening statement when he gets 
here.
    In any event, I want to thank both Ambassador Sales and 
Ambassador Polaschik, and ask you to honor us with what you 
have to say. And we will start with Ambassador Sales.

     STATEMENT OF HON. NATHAN SALES, AMBASSADOR-AT-LARGE, 
  COORDINATOR FOR COUNTERTERRORISM, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Sales. Thank you very much, Chairman Risch, 
Ranking Member Kaine, and other members of the subcommittee. I 
would like to thank you for inviting me to discuss U.S. 
counterterrorism efforts in North Africa.
    And, Mr. Chairman, should I pause now to hear from Senator 
Kaine? Very good.
    I would like to thank you for holding this hearing, and I 
am especially grateful to you for scheduling this hearing at a 
time that allows me to personally participate.
    Our top priority in the region is to prevent terrorist 
groups from threatening the United States by denying them the 
ability to operate in the continent's vast, under-governed 
spaces.
    Terrorists who enjoy safe haven are capable of exporting 
violence around the world, striking us here at home and 
striking the homelands of our closest allies. We saw al Qaeda 
do this from Afghanistan in the 1990s through 9/11. More 
recently, we also saw ISIS do the same thing from its false 
caliphate in Syria and Iraq.
    This is the reason why we are helping the sometimes-fragile 
states of North Africa build their counterterrorism capacity. 
We want to develop their capabilities to the point where they 
are able to defend themselves without relying on assistance 
from the United States.
    Today, ISIS is on the ropes in Syria and Iraq, but 
significant challenges remain--ISIS networks in North Africa, 
as you have already mentioned, Senator; foreign terrorist 
fighters from the region who have traveled to the war zone and 
now seek to return home; al Qaeda affiliates, like AQIM.
    Today, I am going to highlight several areas where the CT 
Bureau and the rest of the State Department have been working 
with our North African partners to address these and other 
problems.
    First, law enforcement and criminal justice. Strong, 
stable, and responsive governments are an important bulwark 
against terrorism. That is why we help partner nations develop 
appropriate legal frameworks to effectively prosecute terrorist 
offenders. In particular, we strengthen our partners' ability 
to investigate, prosecute, and adjudicate terrorism-related 
crimes. We also help them build crisis response teams that are 
capable of responding to terrorist attacks in real-time.
    Second, border security. Terrorists exploit long, porous 
borders in remote and loosely governed parts of the continent. 
An important part of the solution to that problem is 
information-sharing. For that reason, we have worked with our 
interagency partners to conclude HSPD-6 agreements with dozens 
of countries, including a number in North Africa. As you know, 
HSPD-6 calls for information-sharing about known and suspected 
terrorists.
    We have also worked to stem the flow of FTFs across 
international borders. This means getting our partners to use 
Interpol's Stolen and Lost Travel Documents database and other 
resources.
    We are also expanding the PISCES program. That rather 
elaborate acronym is Personal Identification Secure Comparison 
and Evaluation System. It is a mouthful, but what it does do is 
provide state-of-the-art border-screening systems to 24 
countries.
    A third important CT tool is designations. The State 
Department has listed a number of foreign terrorist 
organizations that are active in North Africa. Examples include 
ISIS Sinai, ISIS Libya, AQIM, and Ansar al-Sharia. Using these 
designations enables us to help cut off the financial flows 
that are the lifeblood of these organizations.
    Fourth, we work to counter radicalization in a way that is 
tailored to each North African country's unique circumstances. 
It is not enough to stop FTFs from traveling to the war zone or 
remove them from the battlefield. This is a battle of ideas, 
and we also need to delegitimize the radical ideology that 
attracts them in the first place and prevent them from getting 
into terrorist pipelines.
    Finally, looking beyond Foggy Bottom, the Department of 
Defense continues to advance U.S. counterterrorism priorities 
in North Africa by taking the fight directly to the enemy.
    On October 29th, our soldiers captured Mustafa al-Imam, who 
was allegedly involved in the 2012 Benghazi terrorist attacks. 
We have transferred him to the United States for prosecution, 
where he will face justice for his alleged crimes. We continue 
to investigate the perpetrators of this attack, and we look 
forward to bringing them to justice.
    Mr. Chairman, Mr. Ranking Member, thank you again for 
holding this hearing. I will now turn the floor over to 
Ambassador Polaschik, who will discuss some of the political 
and diplomatic aspects of our efforts in the region.
    Thank you.
    [Ambassador Sales's prepared statement follows:]


               Prepared Statement of Hon. Nathan A. Sales

    Chairman Risch, Ranking Member Kaine, and distinguished members of 
the subcommittee: Thank you for the invitation to discuss U.S. 
counterterrorism efforts in North Africa, which form a critical part of 
our global campaign against ISIS, al-Qa'ida, and their affiliates. Our 
primary goal in the region is to prevent terrorist organizations from 
threatening the United States and our interests by denying them the 
ability to operate in the continent's vast, under-governed spaces. 
Terrorist groups with safe haven are able to export their violence 
around the world, striking our homeland and those of our closest 
allies. We saw al-Qa'ida do this from Afghanistan in the 1990s through 
9/11; more recently, we saw ISIS do the same from Iraq and Syria.
    To mitigate the threat posed by terrorist groups in North Africa, 
we are helping fragile states build capacity as well as leveraging 
highly capable states' counterterrorism expertise. We want to develop 
our African partners' counterterrorism capabilities to a point where 
they need not rely on assistance from the United States to defend 
themselves.
    ISIS is on the ropes in Iraq and Syria. But as the group loses 
control over territory in its core, it is essential that we prevent it 
from reconstituting itself elsewhere. In particular, ISIS maintains 
networks in North Africa that seek to conduct or inspire attacks on the 
continent, in Europe, and against U.S. interests. Furthermore, North 
African foreign terrorist fighters (FTFs) have figured prominently in 
the ranks of ISIS militants in Iraq and Syria, and we must remain 
vigilant against the threat posed by FTFs returning home. Algeria's 
long conflict with the Armed Islamic Group in the 1990s underscored how 
important it is for countries to effectively manage the risks posed by 
returning terrorist fighters. I note that Algeria today is a highly 
capable counterterrorism partner that is attuned to these risks and 
sharing its hard-won insights with like-minded partners, including the 
United States. We also remain concerned about al-Qa'ida's affiliates in 
the region, especially al-Qa'ida in the Islamic Maghreb (AQIM), and 
their growing reach into other parts of Africa.
    Today, I will highlight several specific areas where the Bureau of 
Counterterrorism has been working with North African partners to 
address these and other challenges: training law enforcement officers 
and judges how to handle terrorism cases; strengthening information 
sharing and terrorist screening; cutting off the flow of money to 
terrorist groups; and countering the radical ideologies used by ISIS 
and its affiliates to recruit new members.
Law Enforcement, Criminal Justice, and Crisis Response
    Strong, stable, and responsive governments that provide security 
and economic prosperity for their citizens are an important source of 
strength against terrorist threats. This is why the CT Bureau works 
closely with partner countries to develop appropriate legal frameworks 
to bring criminal cases against terrorist offenders. In particular, we 
assist partners with strengthening their ability to investigate, 
prosecute, and adjudicate terrorism crimes. We also help them develop 
crisis-response capabilities to address terrorist incidents in real 
time.
    To investigate, we work closely with our interagency partners to 
provide assistance to law enforcement units so they have the 
appropriate knowledge, skills, and tools to detect, thwart, and respond 
to terrorism. This includes training, equipping, and mentoring crisis 
response units, canine teams, bomb squads, fusion centers, and cyber 
investigation teams.
    To prosecute, we work with lawyers to enable them to prepare 
persuasive, well-developed cases that draw on different kinds of 
evidence and that lead to convictions. Examples include case-based 
mentoring designed to help prosecutors secure convictions or working 
with countries to develop counterterrorism prosecution cells that are 
versed in terrorism case law.
    o adjudicate, we work with judges on procedural and substantive 
issues so they have a better understanding of the complexity of 
terrorism cases and the types of evidence that will be brought to bear. 
We round out our efforts in the criminal justice system by working with 
prison officials to provide training and technical assistance so they 
can effectively punish convicted terrorists and identify those who may 
be receptive to rehabilitation.
    For instance, we have partnered with Tunisia's security services to 
improve their ability to detect, respond to, and mitigate terrorist 
threats. In May, the Tunisian National Guard launched a raid that 
resulted in the death of a senior ISIS leader who was believed to be 
planning attacks during Ramadan. Just last month, Tunisian tactical and 
investigative units collaborated to arrest members of an alleged 
terrorist cell; an investigation is ongoing under the auspices of the 
Public Prosecutor's offices.
    Promoting this kind of interagency coordination is a staple of the 
training and assistance we provide to our partners. We are also working 
with Algeria's national criminal forensics laboratory to provide 
forensics training to judiciary and law-enforcement personnel, which 
the Algerians are now able to share with neighbors.
    And last month in Egypt, we concluded our first train-the-trainer 
course on Explosive Incident Countermeasures. This will help Egypt 
address bomb threats and train other first responders on the 
identification, neutralization, and safe disposition of explosive 
devices.
Information Sharing, Borders, and Aviation
    Terrorists do not respect borders, so it is no surprise that ISIS 
and al-Qa'ida adherents range across parts of the Maghreb and also 
further south in Mali, Niger, and other Sahel countries. They seek to 
exploit long, porous borders in remote and loosely governed areas of 
the continent.
    This is why the CT Bureau focuses on improving border security-
especially through information sharing at international borders, where 
there is a critical need to detect and prevent terrorist travel. With 
the FBI-administered Terrorist Screening Center (TSC), and in 
coordination with interagency partners, the State Department has 
concluded bilateral arrangements with a number of countries to exchange 
information about known and suspected terrorists pursuant to Homeland 
Security Presidential Directive 6 (HSPD-6), including in North Africa.
    We also have encouraged our partners to stem the flow of suspected 
FTFs across their borders. This means getting countries to make greater 
use of INTERPOL's Stolen and Lost Travel Document and other databases 
and resources related to FTFs--resources that allow countries to screen 
travelers and to assist their law enforcement agencies in identifying 
and investigating terrorist travelers. We also continue to expand the 
Personal Identification Secure Comparison and Evaluation System 
(PISCES) program, which provides state-of-the-art border screening 
systems to 24 countries.
    On aviation security, we are expanding our counterterrorism 
cooperation with Egypt, and we expect to provide enhanced explosives 
detection and screening technologies, training, and canines in 2018. 
Likewise, in 2017, the CT Bureau revitalized a dormant bilateral 
relationship with Libya and provided aviation security training to 24 
participants of the Libyan Aviation Authority from six airports across 
Libya.
Designations and Countering Terrorist Finance
    A third important tool in our comprehensive approach is terrorist 
designations and countering the financing of terrorism. Designating 
individuals and terrorist groups exposes and isolates terrorists and 
their supporters, denies them access to the U.S. financial system, and 
enables authorities to prosecute them for their crimes and prevent them 
from entering this country. Moreover, designations can assist or 
complement the law enforcement actions of other U.S. agencies and other 
governments, whether through their own or UN designations.
    The State Department has designated a number of entities operating 
in North Africa as Foreign Terrorist Organizations, including ISIS-
Sinai Province, ISIS-Libya, AQIM, Ansar al-Shari'a, and the al-
Mulathamun Battalion. We continue to identify individuals and entities 
for designation to combat terrorism and disrupt terrorist financing in 
the region.
Preventing Radicalization and Recruitment
    There are a wide variety of reasons why so many FTFs come from 
North African countries. Some were motivated by a desire to overthrow 
the Assad regime and others by ISIS's call to join its false caliphate. 
Still others were exposed to radical ideology in environments that had 
struggled to build strong public and private institutions capable of 
countering messages of hate. This appears to have been the case in 
Tunisia, from which as many as 3,000 to 6,000 FTFs traveled to the 
conflict zone in Iraq and Syria. By contrast, in Algeria, where the 
memories of the ``dark decade'' fighting Islamist terrorists remain 
fresh, the societal and institutional arrangements put in place seem to 
have prevented any major outflow.
    Countering radicalization in a way that is tailored to each North 
African country is another critical component of a comprehensive 
approach to counterterrorism. We must do more than simply identify and 
stop FTFs from traveling or remove them from the battlefield. We need 
to delegitimize the violent ideology that attracts them and also 
prevent them from getting into terrorist pipelines in the first place.
    In Morocco, for example, we are using lessons from the fields of 
public health and disease control to confront radicalism in local 
communities by detecting, interrupting, and changing behaviors and 
community norms.
    In addition, the CT Bureau works closely with the Strong Cities 
Network (SCN). The SCN is the first global network of mayors, 
municipal-level policy makers, and practitioners united to build 
community resilience to extremism in all its forms. The network has 
more than 100 city members from Los Angeles, New York, and Chattanooga, 
to Peshawar, Nairobi, and Vilvoorde. Tunis is the first North African 
member, and SCN also has cities from northern Cameroon and Mauritania 
in its Sahel ranks.
Military Action
    While I am not here to discuss in detail the use of force against 
terrorists, the Department of Defense continues to advance our 
counterterrorism objectives in North Africa by taking the fight 
directly to the enemy. We have come a long way from the middle of 2016, 
when Libya's branch of ISIS was the strongest ISIS affiliate outside of 
Iraq and Syria. U.S. direct action and our partnership with Prime 
Minister al-Sarraj's government and its aligned forces forced ISIS out 
of Sirte and placed significant pressure on the ISIS-Libya network, 
hampering its ability to conduct complex attacks and project 
significant threats outside the country.
    Separately, on October 29, U.S. forces captured Mustafa al-Imam, 
who was allegedly involved in the 2012 Benghazi terrorist attacks, and 
transferred him to the United States for prosecution. We continue to 
investigate and identify all those who were involved in the attack, and 
we will spare no effort to bring the perpetrators to justice.
Working with Partners
    Finally, it is important to understand that our efforts in North 
Africa are not in isolation. To the contrary, we are working with 
European allies, other key partners, and multilateral institutions to 
amplify our efforts and make a larger impact. Morocco and Algeria in 
particular are regional leaders in multilateral counterterrorism 
initiatives, including those of the African Union, the Trans-Sahara 
Counterterrorism Partnership, and the Global Counterterrorism Forum 
(GCTF).
    We welcome Morocco's support and leadership as our co-lead of the 
GCTF's Initiative to Address Homegrown Terrorism. Over the course of 
the next year, a series of regional workshops will identify innovative 
prevention programs for addressing the challenges of homegrown 
terrorism. Algeria also plays an important role in the GCTF, co-
chairing the West Africa Region Capacity-Building Working Group, which 
helps mobilize assistance to help West African countries build capacity 
to counter terrorism. GCTF members remain committed to addressing 
returning FTFs, countering terrorist financing, enhancing border 
security, building capacity, and preparing national action plans in 
African countries.
    Conclusion
    The United States uses a range of tools and resources and works 
closely with the governments of North Africa and other partners to 
comprehensively address terrorism. We are encouraged by reporting from 
our diplomatic posts about how our training and resources are directly 
assisting partners to disrupt terrorist operations, prosecute terrorist 
suspects, and protect borders. I will now turn the floor over to 
Ambassador Polaschik, who will discuss the political and diplomatic 
aspect of our approach to this region. We greatly appreciate Congress's 
support. Thank you and I look forward to your questions.


    Senator Risch. Ambassador Polaschik?

 STATEMENT OF HON. JOAN POLASCHIK, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Polaschik. Chairman Risch, Ranking Member Kaine, 
subcommittee members, thank you for the invitation to appear 
before you.
    As Ambassador Sales just described, ISIS and other 
terrorist groups have been significantly degraded in this 
region. Nevertheless, these groups continue to capitalize on 
political friction, economic frustrations, and regional 
fragmentation in their quest to destabilize our partners and 
threaten attacks against U.S. interests.
    As an integral component of our counterterrorism efforts, 
the United States is working closely with our partners in North 
Africa as they seek to advance political reconciliation, 
promote economic reforms, and strengthen civil society to 
ensure a robust and comprehensive approach to our collective 
threats.
    I would like to speak briefly about our specific efforts 
and also would like to submit a statement for the record.
    Turning first to Libya, where the ongoing political crisis 
continues to impact security throughout the region, Libya must 
first overcome the current political impasse to achieve lasting 
stability. That is why the administration recently hosted Prime 
Minister al-Sarraj in Washington to reaffirm support for his 
Government of National Accord and U.N.-facilitated efforts to 
mediate a political settlement.
    We urge all Libyans to engage constructively in the U.N. 
process and pursue their ambitions through the ballot box. Any 
attempt to impose a military solution will only fuel civil 
conflict, providing ISIS and al Qaeda with opportunities to use 
Libya as a base to threaten the U.S. and our allies.
    The potential for greater instability in Libya is of 
particular concern to Tunisia. As Tunisia consolidates its 
democratic transition, economic stagnation and social 
marginalization have prompted approximately 4,000 Tunisians to 
join ISIS. U.S. engagement is focused on supporting Tunisia's 
efforts to enhance its ability to respond to this threat, 
bolstering Tunisia's judicial capacity to investigate and 
prosecute those involved in terrorism, and tackling the root 
causes of the foreign terrorist fighter phenomenon.
    In Tunis last month, the Deputy Secretary of State spoke 
directly with Tunisian leaders about the country's economic 
challenges, pledging U.S. support, but urging quicker 
implementation of reforms that are vital to ensuring all 
Tunisians are able to participate fully in political and 
economic life.
    Algeria, where I recently served as U.S. Ambassador, has 
witnessed a dramatic improvement in its political, economic, 
and security situation since the 1990s. Today, Algeria stands 
as a highly effective counterterrorism partner, able to deny 
terrorists safe haven within its borders and working to build 
the capacity of its more fragile neighbors. A measured but 
effective political and economic liberalization in recent years 
has undergirded this transformation.
    Morocco continues to distinguish itself as a capable 
security partner and regional leader, particularly with respect 
to countering violent extremism and radicalization on the 
African continent. Morocco is a net exporter of security.
    For example, in close cooperation with us, Moroccan 
personnel have trained counterterrorism forces in Senegal and 
Chad, while Morocco has lent powerful support to the G5 Sahel 
to strengthen the regional response to terrorism.
    Egypt remains an important strategic partner. Its most 
pressing internal security challenge is the ISIS affiliate in 
northern Sinai.
    Let me pause to reiterate the U.S. Government's condolences 
for the horrifying November 24th mosque attack, which killed 
over 300 Egyptians.
    ISIS has also targeted Egypt's Christians via appalling 
church bombings and attacks on pilgrims. Other terrorist groups 
have claimed attacks on Egyptian officials and police outside 
the Sinai.
    For Cairo, instability in Libya and the potential for ISIS 
to regroup there represent critical threats to Egyptian 
security.
    We remain committed to supporting Egypt's efforts to defeat 
terrorist threats. Building on decades of strong security ties, 
we are seeing growing counterterrorism cooperation and 
continuing strong military-to-military efforts across a range 
of programs.
    Turning briefly to economic stability, President el-Sisi 
has taken bold and necessary steps on reform, and the economy 
is improving, albeit slowly.
    Finally, we will continue to emphasize the importance of a 
comprehensive approach to counterterrorism that protects and 
minimizes damage to civilians. We have been engaged in a frank 
but, as yet, inconclusive dialogue about Egypt's restrictive 
NGO law and Egypt's convictions of employees of U.S. NGOs.
    We have raised and will continue to raise at senior levels 
our concerns about policies that challenge democratic 
governance. And we continue to stress the fundamental 
importance of respect for human rights, civil liberties, and 
the need for a robust civil society.
    Mr. Chairman, Ranking Member Kaine, thank you for the 
opportunity to speak with you, and I look forward to answering 
your questions.
    [Ambassador Polaschik's prepared statement follows:]


               Prepared Statement of Hon. Joan Polaschik

 promoting political stability and countering terrorism in north africa
    Chairman Risch, Ranking Member Kaine, subcommittee members, thank 
you for your invitation to discuss U.S. efforts to promote political 
stability and counter terrorism in North Africa. As Ambassador Sales 
just described, ISIS and other terrorist groups have been significantly 
degraded in this region. Nevertheless, these groups continue to 
capitalize on political friction, economic frustrations, and regional 
fragmentation in their quest to attract new recruits, destabilize our 
partner governments, and threaten attacks against U.S. interests and 
our partners in Africa and Europe.
    As an integral component of our counterterrorism efforts, the 
United States is working closely with our partners in North Africa as 
they seek to advance political reconciliation, promote economic 
reforms, and strengthen civil society to ensure a robust and 
comprehensive approach to the threats we collectively face in this 
region.
    In Libya, our objective is a stable, unified Libya capable of 
working collaboratively with the United States and our international 
partners against terrorism and fostering security and prosperity for 
the Libyan people. Prime Minister al-Sarraj and his Government of 
National Accord (GNA) have been stalwart partners in these efforts. We 
also commend the tireless diplomacy of U.N. Special Representative 
Ghassan Salame to resolve this conflict and achieve a political 
solution.
    Turning first to Libya--where the ongoing political crisis 
continues to impact security throughout the region--that country must 
overcome the current political impasse to achieve lasting stability. 
That is why the President, Secretary Tillerson, and other senior U.S. 
officials hosted Prime Minister al-Sarraj in Washington over the past 
week to reaffirm support for U.N.-facilitated efforts to mediate a 
political settlement and help Libya prepare for national elections in 
2018. As the U.N. Security Council recently affirmed, the Libyan 
Political Agreement must remain the framework for a political solution 
to the conflict and peaceful transition. We urge all Libyans, including 
``Libyan National Army'' Commander Haftar, to engage constructively in 
this U.N. process and pursue their ambitions through the ballot box. 
Any attempts to impose a military solution will only fuel a renewed 
civil conflict, providing ISIS and Al Qaida with opportunities to again 
use Libya as a base to threaten the United States and our allies.
    In 2016, forces aligned with Prime Minister Sarraj and the GNA 
expelled ISIS from Sirte, dealing a significant blow to what was the 
most significant ISIS presence outside of its core in Syria and Iraq. 
Today, in parallel with ongoing military efforts to ensure ISIS cannot 
regroup in central Libya, we are helping Libyan authorities consolidate 
these gains through targeted stabilization programs, such as training 
for Libyan personnel on the safe removal of explosive remnants of war 
that ISIS fighters left behind. As communities liberated from ISIS 
control rebuild, we will encourage the Libyan government to expand 
economic opportunities, restore health and other basic services, and 
promote inclusive governance, steps that are critical to fill the gaps 
in weakly governed areas of the country that ISIS exploited in 2015 to 
gain a foothold in Libya.
    The potential for greater instability in Libya is of particular 
concern to neighboring Tunisia. As Tunisia consolidates its remarkable 
democratic transition, a complex web of interrelated factors have 
spurred radicalization and prompted approximately 3,000 to 6,000 
Tunisians to join ISIS: chronic youth unemployment and economic 
stagnation, feelings of social marginalization, and terrorist 
recruitment techniques honed to highly localized grievances. U.S. 
diplomatic efforts and assistance programs are accordingly focused on 
supporting Tunisia's efforts to reorient its security efforts to 
respond to this threat; bolstering Tunisian judicial capacity to 
investigate, prosecute, and incarcerate those involved in terrorism 
cases; and tackling the root political and economic causes of the 
foreign terrorist fighter phenomenon. Recent polling by the 
International Republican Institute suggests further reason for concern: 
nearly 90 percent of Tunisians claimed that corruption is now worse 
than under the Ben Ali dictatorship, and roughly half of Tunisia's 
young people aspire to emigrate, legally or not, to Europe.
    Six years after the Jasmine Revolution set the Middle East ablaze, 
economic opportunities have often lagged behind the unprecedented 
openings for free political expression. Prime Minister Chahed and his 
government have outlined encouraging plans to shift this trajectory 
through greater economic inclusion, a revitalized private sector, and a 
stronger and more effective judiciary. Certain reforms, including cuts 
to public sector wages, will be painful in the short term, and further 
test Tunisia's political and societal cohesion. We support Tunisia's 
continued progress with the IMF to promote macroeconomic stability, 
curtail public expenditure growth, and promote budget transparency. The 
United States will provide targeted assistance to build capacity, 
increase economic literacy, and strengthen Tunisia's still fragile 
institutions, but the fundamental responsibility for ensuring Tunisia 
weathers its current economic challenges will rest with the Tunisian 
people and their elected leaders.
    In Tunis last month, Deputy Secretary Sullivan spoke directly with 
Tunisian leaders about these challenges, pledging U.S. support but 
urging quicker implementation of reforms vital to ensuring all 
Tunisians are able to participate fully in both political and economic 
life. Policies that enable private sector-led job creation, spur 
innovation, and empower civil society groups to hold their government 
accountable will address the very grievances that terrorists seek to 
exploit to attract young Tunisians to their vile cause.
    Algeria, where I recently served as U.S. Ambassador, has witnessed 
a dramatic improvement in its political, economic, and security 
situation since the ``dark decade'' of the 1990s. Today, Algeria stands 
as a highly effective counterterrorism partner in the region, both able 
to deny terrorists safe haven within its borders and, increasingly, 
export its best practices to more fragile states across Central Africa 
and the Sahel.
    A measured but effective political and economic liberalization in 
recent years has undergirded this transformation. Since 2011, the 
Algerian Government has adopted a path of gradual political reform: 
lifting a state of emergency in place for nearly two decades, enhancing 
the role of the parliament, re-instating presidential term limits, and 
creating an independent electoral commission. Last month, Algerians 
peacefully went to the polls to elect municipal governments. 
Encouragingly, the Algerian government also recognizes that economic 
reforms and a greater openness to foreign investment are critical 
ingredients for its lasting stability. As the country seeks to adapt to 
persistently low oil prices, the parliament has begun to rein in public 
subsidies and boost taxes, unpopular but necessary steps to stabilize 
the Algerian economy. Onerous import restrictions, however, continue to 
limit Algeria's competitiveness and dampen prospects to knit Algeria 
more closely to the international community.
    Morocco continues to distinguish itself as a capable security 
partner and regional leader, particularly with respect to countering 
violent extremism and radicalization on the African continent. Morocco 
is a net exporter of security. For example, in close cooperation with 
us, Moroccan personnel have trained counterterrorism forces in Senegal 
and Chad, while Morocco has lent powerful support to the G-5 Sahel 
Joint Force Initiative to strengthen the regional response to 
terrorism.
    At home, a persistent, small-scale protest movement has highlighted 
the intersection of political instability and counterterrorism. In 
response to the tragic death of a fish vendor last year in a 
confrontation with local authorities, Moroccans in an underdeveloped 
northern region have demanded greater investment in their region, more 
help creating jobs, and fairer treatment by security forces. We are 
encouraged that Moroccan leaders have begun to respond to these 
economic concerns, easing political tensions and denying terrorists the 
chance to exploit grievances to recruit new members.
    Finally, six years after Tahrir Square and three years after 
President al-Sisi's election, Egypt remains an important strategic 
partner facing a number of challenges. Its most pressing internal 
security challenge is the ISIS affiliate in Northern Sinai; let me 
pause for a moment to reiterate the U.S. government's deepest 
condolences for the horrifying November 24 mosque attack, which killed 
over 300 Egyptian citizens. ISIS has not yet claimed responsibility for 
the attack, the worst in modern Egyptian history, but we are confident 
ISIS was responsible. We have seen reports of ISIS flags at the scene. 
ISIS has also targeted Egypt's Christians, killing more than one 
hundred over the last year, including by appalling church bombings and 
attacks on Christian pilgrims, and by efforts to drive Christians out 
of the Sinai Peninsula. In addition to ISIS' campaign in Sinai, other 
terrorist groups have also claimed attacks on Egyptian officials and 
police outside of the Sinai, and many of the above-mentioned attacks on 
Christians have taken place in mainland Egypt. In October, militants 
killed numerous Egyptian police officers in an attack in the Western 
Desert region.
    Egypt's 750-mile border with Libya represents an additional 
security challenge. For Cairo, instability in Libya and the potential 
for ISIS to regroup in Libya represent critical threats to Egyptian 
security.
    We remain committed to supporting Egypt's efforts to defeat 
terrorist threats. Building on decades of strong security ties, we are 
seeing growing counterterrorism cooperation, and continuing strong 
military-to-military efforts across a range of programs. We conducted 
the first Bright Star joint military exercise in eight years, with a 
new focus on contemporary, asymmetric threats. U.S.-origin equipment, 
for example mine-resistant vehicles, contributes daily to the Egyptian 
Armed Forces' ability to effectively confront the challenges.
    I want to turn briefly to economic stability. President al-Sisi and 
his government have taken bold and necessary steps on economic reforms 
supported by the United States and the international community, and the 
economy is improving, albeit slowly. These reforms have included 
floating the currency, introducing a Value Added Tax and reducing fuel 
subsidies, and expanding social spending to support the less fortunate. 
Egypt is committed to continue reducing its deficit and making 
structural reforms to improve the business environment and spur 
investment. These steps to strengthen the Egyptian economy are 
extremely important to promoting Egypt's long-term stability.
    We will continue to emphasize with our Egyptian government 
interlocutors the importance of a comprehensive approach to 
counterterrorism that protects and minimizes damage to civilian 
populations. We have been engaged in a frank, but as-yet inconclusive, 
dialogue about Egypt's restrictive NGO law, and Egypt's conviction of 
employees of U.S. NGOs. We have raised--and will continue to raise at 
senior levels--our concerns about policies that challenge democratic 
governance, and continue to stress the fundamental importance of the 
respect for human rights, civil liberties, and the need for a robust 
civil society.
    Chairman Risch, Ranking Member Kaine, thank you for the opportunity 
to speak with you about ongoing efforts in North Africa to promote 
political and economic stability in order to achieve a lasting victory 
against terrorism in this complex region. I look forward to answering 
your questions.
    Thank you.


    Senator Risch. Thank you very much. That was a really good, 
comprehensive overview. And obviously, we have the right panel 
here to delve into this.
    So with that, Mr. Ranking Member, did you want to make a 
statement?
    I am going to reserve my questions, so I will yield to you.
    Senator Kaine. I apologize for being a few minutes late. 
But it spared you hearing an opening statement from me, so 
there is some good news.
    All right, let me just jump right into questions.
    One of the things that I am always puzzled by, and I think 
you can each offer some insight into this, is that there are 
relatively stable countries in North Africa that we work 
closely with--Tunisia, Morocco, Algeria. And yet, a large 
number of the foreign fighters that go to fight with ISIS come 
from these nations.
    Why is that the case? Why have they been such producers of 
foreign fighters who go fight with ISIS?
    Ambassador Sales. Thanks for the question, Senator. And let 
me say, it is good to see you again.
    I think the answer to that question is very context-
specific. I think different countries have experienced 
radicalization and the migration of foreign terrorist fighters 
for different reasons.
    So Tunisia, for instance, has sent anywhere from 3,000 to 
6,000 foreign terrorist fighters from North Africa into Syria 
and Iraq. Morocco, by contrast, has sent about 1,700. The 
numbers for some of the other countries are substantially 
lower.
    In the case of Algeria, which exhibits a very low incidence 
of foreign terrorist fighter movements, I think part of the 
reason for their relative success in the region is because of 
their long history throughout the 1990s of combating Islamist 
violence in Algeria. I think that experience has helped Algeria 
create governmental institutions and civil society institutions 
that help their population, that sort of inoculate their 
population against the siren song of radicalism.
    Of course, not perfectly. All countries could stand to do a 
better job. But I think that experience from the 1990s has been 
one factor that has contributed to the relatively advantageous 
situation when it comes to foreign terrorist fighters.
    Senator Kaine. Let me ask a second question. The 
President's announcement today about Jerusalem, this body has 
long recognized the reality of Jerusalem as the center of 
government for Israel. But the reason that Presidents have not 
taken the step before now has not been because of that reality. 
It has been because of advice by allies in the region, 
including allies of Israel like Jordan, Saudi Arabia, Egypt, 
who have basically said, if the U.S. weighs in on that, it may 
well lead to extremism in the region that could be dangerous 
either to Israel or potentially dangerous to the U.S., U.S. 
Embassy personnel, et cetera.
    Is that a concern that we should be taking seriously 
following this announcement? And what is the State Department 
doing to try to protect our Embassy personnel in the region?
    Ambassador Polaschik. Well, Senator, I hope that you have 
had a chance to listen to the President's statement. I know you 
all have very busy schedules. I was just reading very quickly 
the transcript myself, to make sure that I had the latest 
information.
    I think we need to look at a few issues here. First, as you 
said, the President recognized Jerusalem as the capital of 
Israel and its seat of government. But in his remarks, the 
President also said a number of important things about the 
final status and stressed that the specific boundaries of 
Israeli sovereignty in Jerusalem are subject to final status 
negotiations between the parties. The United States has not 
taken a position on boundaries or borders. We realize----
    Senator Kaine. If I could just interrupt, because I do not 
want to run over time. I have the statement here, and it does 
include that.
    The piece I am particularly interested in is one aspect of 
the President's statement. This is a summary: Departments and 
agencies have implemented a robust security plan to ensure the 
safety of our citizens and assets in the region.
    That suggests that the administration was aware that this 
could have some negative security consequences for Embassy 
personnel and others in the region prior to making the 
announcement.
    What is the State Department doing? What are these robust 
security plans? What is the State Department doing to try to 
protect our people, in the event that this announcement leads 
to the kinds of events that the King of Jordan and others have 
suggested it might?
    Ambassador Polaschik. The safety and security of American 
citizens, both our American citizens working for the U.S. 
Government, but, of course, our private American citizens 
throughout the world, the security of our installations, the 
safety of the thousands of troops that we have throughout the 
world, including in the region, are of paramount concern for 
this administration, and especially for Secretary Tillerson, 
who starts all of his staff meetings with a focus on security.
    So this is something that we have been weighing very 
carefully. We have been meeting internally. We have been 
sending messages out to our Embassies and consulates throughout 
the world, asking them to think about these issues.
    And of course, we are also talking to our partner 
governments, to make sure that we are doing everything possible 
to ensure the safety of our American citizens throughout the 
world.
    Senator Kaine. Do you know whether we have deployed, for 
example, additional Marine security guards or other military or 
other protective assets into areas that are likely to be 
affected, should some of these concerns occur?
    Ambassador Polaschik. Senator, I would be happy to provide 
more information in a closed session.
    Senator Kaine. Okay, all right. That is fine. That is 
enough for my first round of questions. I may have more.
    Senator Risch. Sure. We will get back to you. Thanks so 
much.
    Senator Young actually got through the door before you did, 
Senator.
    Senator Young. Well, thank you, Chairman.
    This hearing, like so many others, underscores for me the 
importance of us, once again, focusing on the need for this 
committee to pass an Authorization for Use of Military Force.
    As my colleagues know, I introduced legislation to that end 
back in March. I have enjoyed working with many of my other 
colleagues to understand the importance of this issue, and have 
led on this issue, and applaud the chairman's recent efforts to 
take up this cause. And hopefully, we can keep moving forward 
on that front.
    Ambassadors, the counterterrorism discussion often focuses 
on the kinetic element to the exclusion of other elements of 
that fight. Now, it is certainly true there are some terrorists 
who are irreconcilable and simply have to be taken off the 
battlefield through military means.
    But a comprehensive CT strategy has to be more than that. 
It has to focus on capturing or killing today's irreconcilable 
terrorists while also addressing sources, root causes of 
radicalization.
    Ambassadors, based on your current positions and your 
lifetime of experience, what do you see as the connection 
between, on one hand, our international development efforts 
working with our partners and, on the other, the fight against 
terrorists?
    Ambassador Sales. Well, Senator Young, thank you for the 
question.
    I think there is a very tight and close relationship 
between development that leads to well-established, democratic 
institutions, prosperous economies on the one hand, and 
counterterrorism successes on the other.
    Democracy is a great bulwark against terrorism, and efforts 
to build democracies that are open and transparent and 
responsive to their citizens, and protective of basic civil 
rights, are key counterterrorism tools.
    And the reason for that, I think, Senator, is because 
democratic governments that provide their citizens a voice, an 
opportunity to be heard, falsify the false claim of terrorists 
that a resort to violence is necessary to address one's 
concerns. That is never the case, but it is especially not the 
case in a democratic government.
    And so I think that the broader suite of USG policies that 
seek to develop the economies of countries around the world and 
to strengthen their commitment to democracy pay a number of 
dividends, not the least of which are counterterrorism 
dividends.
    Senator Young. Thank you.
    Ambassador Polaschik, could you also speak to this issue, 
and perhaps focus not just on our efforts to nurture and 
promote democracy, but also maybe to more basic human needs--
hunger, medical attention, and economic development?
    Ambassador Polaschik. Of course, yes.
    And this is something that we are trying to do, to take a 
holistic approach to the drivers of radicalization. And as 
Ambassador Sales said in his previous response, I think the 
context is different from country to country, from individual 
to individual. So we are trying to tailor our overall 
engagement in various countries to address what we see as 
specific needs.
    So for example, in Tunisia, there is a lot of focus not 
just on strengthening the capacity of the law enforcement and 
the security services, but also looking at what it is going to 
take to create employment, so that the large numbers of very 
highly educated young people actually have good, satisfying 
jobs.
    We have the Tunisian American Entreprise Fund that is 
creating small enterprises. There is a robust USAID program. We 
have, of course, all our MEPI programs that are focused on 
youth leadership and training.
    In terms of the kind of basic humanitarian needs, as you 
know, a lot of countries in our region have higher levels of 
income, so we don't have a lot of USAID missions in the classic 
sense.
    Of course, we have programs in Morocco. We have programs in 
Egypt, Jordan, throughout the region. Libya and Yemen, things 
are focused more on the sort of transition.
    Humanitarian assistance is obviously a very, very key part 
of this for countries that are in conflict. The U.S. has 
delivered hundreds of millions, in fact, billions of dollars of 
aid in recent years.
    Senator Young. My sense, informed by some recent 
authoritative reports, is there is going to be an increasing 
need for our country to focus on this, working with other 
international partners. There are two reports that recently 
came out.
    The first report was published just yesterday by the World 
Food Program USA that demonstrates the link between food 
insecurity and instability.
    And the second report was produced by the United Nations 
Development Program. It is entitled, ``A Journey to Extremism 
in Africa,'' and this report highlights the link between lack 
of developments, on one hand, and violent extremism, on the 
other.
    With unanimous consent, Mr. Chairman, I would like to 
introduce both of these reports in the record.
    [The reports mentioned above may be accessed through the 
hyperlinks below:]


https://www.wfpusa.org/wp-content/uploads/2019/03/
wfp_food_security_final-web-1.pdf

http://journey-to-extremism.undp.org/content/downloads/UNDP-
JourneyToExtremism-report-2017-english.pdf


    Senator Young. And lastly, I would just like to ask the 
Ambassadors whether you have had a chance to review these 
reports.
    Ambassador Sales. Not yet, Senator, but will look forward 
to doing so.
    Senator Young. You as well?
    Ambassador Polaschik. Likewise.
    Senator Young. All right. Thank you, Ambassadors.
    Senator Risch. Thank you.
    Senator Booker?
    Senator Booker. I have some questions, but just a quick 
follow-up.
    I mean, that is what worries me, is that the budgets 
reflect priorities, and we seem to be focusing, when it comes 
to North Africa, sub-Saharan Africa, far more on our military 
expenditures, which are essential and necessary. And the 
various counterterrorism coalitions that we are in are 
extraordinarily important.
    But I do worry about seeing budgets being proposed from the 
administration that are slashing a lot of critical programs 
that ultimately create an environment for stability, where we 
deter folks from a pathway toward radicalization. In addition, 
our diplomatic resources in Africa, have also been cut as well 
as investments we are making in institution-building and the 
like.
    I wonder if you could comment on that, because Senator 
Young has made this point numerous times, and I tend to agree 
with him. I am actually growing more worried that we are 
relying on our military interventions with the thought that 
might somehow not only solve the immediate problems but also 
the longer term causes of radicalization.
    Ambassador Sales. It is a great question, Senator. Thank 
you for raising it.
    I think Ambassador Polaschik and I, and the entire State 
Department and the administration, would give you the same 
answer. And that is that the kinetic aspects of our 
counterterrorism strategy are important and vital, and so are 
various other non-kinetic aspects of our counterterrorism 
strategy. And that is why we are here today to tell you about 
them.
    Let me, if I could, just give you a couple of examples of 
some of the things that we are doing in North Africa in the 
civilian space, in the border security, law enforcement, and 
CVE space to round out the full suite of whole-of-government 
tools that we are using to address these threats, both short-
term and long-term.
    So in places like Algeria, for instance, we are partnering 
with local law enforcement to develop their ability to 
investigate terrorism-related crimes. We are working with 
judges to help them understand how to handle complex terrorism 
cases, how to deal with evidence, how to deal with witness 
protection and facility protection. And we are also working 
with prison officials to help them manage the very difficult 
issues that arise when you are trying to incarcerate.
    Senator Booker. And I appreciate that. And maybe for a QFR, 
I would love to get the full details of this, being that I only 
have 3 minutes left.
    Specifically to the point about food aid, the proposal of 
the administration is to cut the funding to the very programs 
that reports like this one show are necessary for us to create 
stability.
    Ambassador Polaschik. Senator, if I might jump in on that, 
I think there are some very interesting and positive 
developments in North Africa with respect to international 
cooperation, because this is a part of the world where the 
impact of the terrorism, of the migration flows, of the 
smuggling is felt very keenly by Europe.
    So actually, Tunisia is a really good example, and Libya as 
well, where we have ramped up our assistance very quickly. We 
have given huge sums of money to help strengthen Tunisian 
institutions, to help them get through that initial period. And 
then the rest of the international community has come in to 
help pick up the slack and take on other projects.
    So for example, there is a G7 initiative underway in which 
we are sharing the burden with our partners to help address all 
of these needs that you outlined. Libya is also another very 
positive example where the United States is doing part of it, 
but the Europeans are also doing a very major part.
    So I think as we look at the realities of this 
administration's budget request, something that we have done 
very, very effectively is to work with our international 
partners to make sure that we are looking holistically at the 
needs and to make sure that other partners are engaging in 
areas where we might not be able to engage as robustly as we 
have in the past.
    Senator Booker. Okay. I wish we had more time.
    When you mention Tunisia, I get worried about the 
corruption going on in their government, and problematic 
efforts like their Administrative Reconciliation law, which 
gives sort of blanket immunity for civil servants. And these 
are obviously the things that create grievances.
    I just want to, in my remaining moments, ask about the 
human trafficking problem. I am sure you all saw the CNN videos 
with what is to me heartbreaking evidence of modern-day 
slavery, the trafficking going through areas that my 
subcommittee covers. There is a lot of evidence that these 
human trafficking and, in fact, according to EU reports, the 
decrease in registered migrants does not necessarily translate 
into one-to-one reduction, because of the overall flow as new 
routes are going.
    This is happening, the flow of human trafficking, the 
modern-day slavery. This is something I know weighs on your 
hearts and anybody who is aware of the degree of it. there are 
today desperate people who are fleeing, seeking opportunities, 
and ending up being sold into slavery.
    It is unconscionable. It is unacceptable. It should enrage 
this Nation. And we should be doing something about it.
    So in the remaining moments, could you let me know what the 
U.S. is doing to try to help address this situation, what kind 
of humanitarian aid, migration-related assistance we are 
providing, and how we are cooperating with our allies in the 
region, specifically with the EU? And has the State Department 
considered doing things to hold the perpetrators of these 
abuses accountable, including sanctions under the Magnitsky Act 
or other authorities?
    Ambassador Polaschik. We share 100 percent your concerns 
about this horrifying situation. And Libyan Prime Minister 
Sarraj was just in Washington last week. That certainly was a 
topic of discussion. The Security Council met recently to talk 
about this, and the United States expressed its deep concern 
over this.
    On the humanitarian front, we have been engaged in 
supporting migrants, providing humanitarian assistance, since 
the very early days of the revolution back in 2011. This is, 
unfortunately, not a new development in Libya.
    So we continue to be very, very engaged, working with IOM 
and others to make sure that the people caught up in these 
horrific crimes get the care and assistance that they need.
    With respect to trying to get a handle on it, I think this 
comes back to many of the issues that Ambassador Sales was 
talking about, making sure that there are appropriate border 
controls.
    But it also comes back to the root causes, as the Senator 
has also identified. The people who are coming from these 
countries elsewhere in the continent whose lives are so 
desperate that they are willing to make that journey across the 
Sahara, clearly, something needs to be done so that they have 
prospects in their own countries.
    So it is a multifaceted approach. It is something that we 
are looking very carefully at, and we coordinate very closely 
with our colleagues in the African Affairs Bureau to make sure 
that we are looking at this in a very holistic way.
    Senator Booker. Mr. Chairman, thank you very much.
    Senator Risch. Thank you, Senator Booker.
    Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman. I want to thank 
the witnesses for your testimony and your service to your 
country.
    In the committee that I chair, Homeland Security and 
Governmental Affairs, we have an annual threat hearing. And 2 
years ago, FBI Director Comey testified or predicted that as we 
tighten the noose around ISIS in Syria--Iraq and Syria, at that 
point in time--we were going to see a diaspora, a spreading of 
foreign fighters into other regions.
    This year, FBI Director Wray and some of the other 
witnesses, NCTC Director Rasmussen, had more encouraging 
testimony, saying that we are really seeing those fighters stay 
there and die in Raqqa, although, we have heard reports of 
fighters leaving Raqqa.
    Today, we had a hearing on this evolving fight. Let's face 
it, there is a new phase now as we have denied them the 
territory, but we have not denied them the cyber caliphate. But 
it was actually pretty encouraging, saying that because Turkey 
has shut down the migrant flow, it is actually quite difficult 
for ISIS foreign fighters to leave that warzone, leave Syria.
    Because we did not have a representative from the 
Department of State, I just want to ask the Ambassador and the 
secretary, do you agree with that assessment? Are they pretty 
well trapped in that warzone?
    Ambassador Sales?
    Ambassador Sales. Thanks for the question, Senator Johnson.
    I think the situation today is a lot better than it was in 
2014. There are much stricter border controls in place today to 
monitor and prevent the movement of foreign terrorist fighters 
across international borders. That is not to say, however, that 
the threat has gone away. I think the threat has simply 
changed.
    So as you know, the Paris attacks 2 years ago, November 
2015, were carried out by foreign terrorist fighters who had 
gone to the warzone and then come home. We are still seeing 
terrorist attacks today in Europe, in the United States, most 
recently in New York City on Halloween, by people who have not 
traveled to the warzone, but rather are inspired by the radical 
ideology and message of hate that ISIS perpetuates.
    ISIS is very savvy when it comes to using social media as a 
megaphone to broadcast their message, and they are able to 
reach people who have no capacity to travel to the warzone. 
That is one of the concerns, Senator, that I think we need to 
focus on.
    Senator Johnson. I understand that, but I am asking 
specifically about those foreign fighters being able to escape 
that warzone. And 2 years ago, we had the migrant flow through 
Turkey. We have clamped down on that. Are there other escape 
avenues?
    Secretary Polaschik, by the way, that sounds like a very 
Wisconsin-type name. [Laughter.]
    Senator Johnson. Correct, Senator Risch?
    Senator Risch. Yes.
    Ambassador Polaschik. Well, Senator, I actually grew up 
here in Alexandria, Virginia, but my family is from North 
Eastern Pennsylvania.
    So, yes, in terms of the other routes, as Ambassador Sales 
said, the Turks and others have really clamped down, but no 
system is infallible.
    I think what is positive, since the hearing that you 
referenced, is the actions that we have taken in Libya, and we 
have had a very good counterterrorism partner in Prime Minister 
Sarraj and the GNA. So we have very effectively, with the 
Libyans, degraded ISIS's capacity in Libya, and then the 
follow-on strikes in other desert camps.
    So I think the scenario that I was very worried about when 
I was sitting as U.S. Ambassador in Algeria, that it would 
squeeze ISIS corporate headquarters and they would pop up in 
North Africa, actually has not happened.
    I know from speaking with the Algerians who follow these 
issues very, very closely, they are concerned about the follow-
on effect into the Sahel region, which is outside of my 
particular area of expertise within the State Department, but 
as Ambassador Sales and others have pointed out, a region with 
weak institutions, a limited capacity.
    So I think one of the very positive things that the 
administration is doing is working with the stronger partners 
in North Africa to help build the capacity of the weaker Sahel 
states.
    Morocco, as I mentioned in my opening statement, has been 
doing great work. Algeria does as well. And I think this is 
something that we can really continue to do, because these 
states share the same vision that we have, in terms of the need 
for security, stability, and those kinds of economic reforms as 
well.
    Senator Johnson. You might have answered my final question 
here.
    In a full committee hearing, Chairman Corker pointed out 
that there are 19 different nations that the Defense Department 
is operating in to try to prevent the spread of terrorism.
    Obviously, history shows us that we have failed states like 
Afghanistan. If we allow those to continue to fester, terrorism 
builds, like we allowed ISIS to rise in the ashes of al Qaeda 
in Iraq.
    One of the top priorities, I would imagine, of this 
administration would be to prevent that from happening. In your 
regions that you are responsible for, which is or which are the 
nations most at-risk for being that failed state that that type 
of terrorist activity could blossom in?
    Ambassador Sales. Well, Senator, it is difficult to say who 
is at the top of the list or who is at the bottom of the list. 
I would say that all countries have their challenges. And let 
me explain in a bit more detail, mindful of the time, what we 
are doing to help them meet those challenges.
    It is essential that the sometimes-fragile states develop 
reliable and strong and capable institutions to deliver basic 
government services, such as law enforcement, such as criminal 
justice, such as border security. These kinds of capabilities 
that we enjoy in the United States and in much of the developed 
world are useful tools in the counterterrorism toolkit.
    But I would go one step further and say that, in building 
CT capabilities in these areas, we also help these countries 
address some of the concerns that Senator Booker poignantly 
raised a moment ago. A state that is capable of preventing a 
terrorist from coming across its border is also capable of 
preventing a human trafficker from coming across its border. A 
state that has courts that are capable of adjudicating 
terrorism-related crimes also has courts that are capable of 
adjudicating human-trafficking-related crimes.
    So the CT investments that we are making pay a number of 
dividends not just in the CT space, but across-the-board, I 
think.
    Senator Johnson. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Risch. Both of you would like to ask some more 
questions. Why don't we take a short recess? We can go down and 
vote at the end of this one, at the beginning of the next one, 
and come back in a few more minutes, if that is all right with 
you.
    With that, we will be in recess until we get back. 
[Recess.]
    Senator Risch. We will come back to order again. I see we 
have lost the onlookers, but we have the important people here, 
which is a good thing.
    I apologize for that, but the wheels of justice turn slowly 
on the floor of the Senate, slower than most places.
    Thank you, again, for coming. And thank you so much for 
your input.
    Senator Young, you had some follow-up.
    Senator Young. I want to thank the Ambassadors again for 
their presence here today.
    I would like to turn to discussing the importance of cyber 
warfare in fighting against terrorism.
    Would you agree, first of all, that our Nation's cyber 
activities are increasingly important as we carry out the fight 
against ISIS, al Qaeda in the Arabian Peninsula, and other 
terrorist actors?
    Ambassador Sales. Absolutely, Senator.
    Senator Young. Okay. Do you have any thoughts related to 
policy, funding, or other legislative initiatives that we need 
to be embarking on to improve our cyber capabilities?
    Ambassador Sales. Senator, that is a very big question, and 
I do not think I am prepared to answer it in it is entirety, so 
let me answer a couple smaller pieces, specific facets of that 
question, as best I can today. And we are happy to come back 
and discuss it.
    Senator Young. It is a broad question, of course. I want 
you to focus narrowly on the counterterrorism context, please.
    Ambassador Sales. Right. I think one of the vulnerabilities 
that we face is that the shady figures who are willing to sell 
on the dark web, exploits that are capable of taking advantage 
of vulnerabilities in commonly used software products, they 
have insufficient scruples to prevent them from selling to 
rogue states. They sell to organized crime, and my concern is 
that they would also be willing to sell these sorts of cyber 
weapons to terrorist organizations.
    I am not aware of any intelligence indicating that that is, 
in fact, happening. But it is a risk that I think is a risk 
that we should take seriously and think about addressing.
    Senator Young. Just days ago, I visited Fort Meade, Army 
Cyber Command, specifically the 780th Military Intelligence 
Brigade, Task Force Echo, in order to gain more information 
about DOD cyber activities as they relate to counterterrorism. 
And I had the pleasure of visiting with members of the Indiana 
National Guard, who are part of this unit, and learning more 
about their work. And so I just wanted to let people publicly 
know that I am proud of their activities.
    As things come up, I hope you will let this committee know 
and our office about things we ought to be doing here on the 
Hill to further their efforts and others who are involved in 
this fight.
    I would like to turn to another technology issue, and it is 
ISR. In testimony before the Senate Armed Services Committee on 
March 9 of this year, General Waldhauser, who is Commander of 
AFRICOM, stated that only approximately 20 percent to 30 
percent of AFRICOM's ISR requirements are met.
    On October 30, I asked Secretary Mattis about this ISR 
shortfall, and he said General Waldhauser was 100 percent 
correct. Secretary Mattis said all geographic combatant 
commands suffer from an ISR shortfall.
    The Secretary said, ``There is a finite amount of ISR 
assets, and we deal them out like gold coins to the various 
commands.''
    Ambassador Sales, as the coordinator for counterterrorism, 
do you agree with the assessments of General Waldhauser and 
Secretary of Defense Mattis regarding this shortfall?
    Ambassador Sales. Senator, I certainly am not in a position 
to second-guess military experts on what their operational 
needs entail, in light of their hardware capabilities.
    Senator Young. So the implications, as I understand it, are 
pretty severe, right? So this will deal an adverse sort of blow 
to our situational awareness, our support of operations. And it 
will prevent us from getting early notice about various 
threats.
    I have no doubt that members of the military and others 
involved in these efforts are doing the best they can with 
limited resources.
    But despite these efforts, can you provide any additional 
detail on, operationally, how the lack of ISR has impacted our 
efforts in North Africa?
    Ambassador Sales. Senator, it is a great question, and I 
defer to the Pentagon, because it is DOD that determines what 
their operational requirements are, and they operate the assets 
that are designed to advance those operational needs. So I 
defer to them, sir.
    Senator Young. Okay, as a diplomat, you work with other 
countries, our NATO allies, quite a bit. Have there been 
conversations with them about how they might help augment our 
resources in this area?
    Ambassador Sales. Senator, one of the most important 
commitments that President Trump has asked our allies to make 
in NATO, but elsewhere as well, is to share a greater portion 
of the burden of our mutual self-defense.
    We are constantly talking with NATO allies and other allies 
about what they can do to contribute more to our shared 
efforts. And I suspect that ISR would be no exception to that.
    Senator Young. You are not aware of any specific 
conversations about North Africa and the needs there, dialog 
with----
    Ambassador Sales. I have not participated in any such 
conversations, but perhaps Ambassador Polaschik could 
elaborate.
    Ambassador Polaschik. Senator, I think that we could 
probably have a good discussion in a closed session about some 
of these issues, because there is good counterterrorism 
cooperation with a number of our partners in the region. But we 
would have to do that in a closed session.
    Senator Young. Along with the Embassy security stuff. Okay.
    Ambassador Polaschik. Yes.
    Senator Young. Thank you.
    Senator Risch. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you.
    As I think about counterterrorism challenges in North 
Africa more generally, one of the issues that I am very 
troubled about is what I think is now sort of a permanent 
problem of migrants and refugees.
    I have a very different thought than the President does 
about what to do about it, but I actually think that he is 
right that this refugee crisis, at any point in time with tens 
of millions of people as refugees or migrants, it does raise 
concerns about terrorists sneaking over borders. And it raises 
all kinds of other concerns.
    Even well-meaning people seeking a refugee status moving 
into a country like Jordan that doesn't have many resources, of 
water, for example, can create all kinds of instability in 
Jordan, or refugees from Syria that go into Lebanon when there 
is not enough of a school system for the Lebanese kids can 
create all kinds of challenges.
    So terrorism, instability, there are major, major issues 
that refugee and migrant populations create. And frankly, I 
think we are used to thinking of refugee and migrant issues as 
sort of episodic, but I think we, frankly, have to view them as 
sort of normal and likely to be somewhat permanent, based on 
weather emergencies, violence, civil war, corruption. All kinds 
of issues drive this.
    You are the first State Department witnesses I have had 
before me since this happened, so you get the benefit of being 
asked the question. But I was stunned when the Trump 
administration announced on Friday or Saturday that they were 
pulling out of the global dialogue on refugee issues in Mexico 
this week.
    Every Nation in the U.N. General Assembly voted on a 
nonbinding compact in September of 2016, it was even called the 
New York compact, to basically say this refugee issue is 
getting out of hand, and we ought to come up with best 
practices to deal with it.
    The nations of the world were gathering in Mexico this week 
to talk about, what are new best practices for dealing with 
migrants and refugees?
    A principals meeting was called by the administration last 
week to try to decide what to do about the compact and about 
the meeting this week.
    My own investigation as to what happened suggested that, 
going into that meeting, the State Department, the Department 
of Defense, CIA Director Pompeo, and U.N. Ambassador Haley all 
believed that the U.S. should participate, that solving this 
problem was more likely to happen in an effective way if the 
U.S. was at the table rather than not.
    But my own discussions with people who were there suggested 
that others, the chief of staff of the White House, the White 
House advisor Steve Miller, and the Attorney General said, no, 
we should pull out of even having a dialogue with other nations 
about refugees. And reporting from folks in the meeting was 
that the reason advanced was this was an issue that was part of 
the Obama administration, and we should not stay with it.
    Given your brief, both of you, in working on 
counterterrorism issues, do you think that we will be able to 
better deal with those issues if the U.S. is absent from a 
global dialogue about the extent of the problem and how we 
should handle it? Or do you think we are more likely to come up 
with good answers to this problem, if the U.S. is at the table?
    Ambassador Sales. Senator, I cannot speak specifically to 
the decision about the IOM. But what I can tell you is that, 
regardless of what multilateral fora the United States is 
engaged in, we are constantly undertaking robust, bilateral 
dialogues with other countries that face the same problems and 
share the same values as us. That is especially true when it 
comes to the movement of persons related to the foreign 
terrorist fighter phenomenon.
    So we are constantly having conversations with countries in 
the Middle East that can be transit countries for the movement 
of persons, legitimate refugees who need our assistance, but 
also terrorists who might seek to exploit our hospitality. We 
are working with and dialoguing with countries that are sources 
of foreign terrorist fighters, including in North Africa. And 
we are also in conversations with countries that could be the 
targets of attacks mounted by foreign fighters who have tried 
to exploit refugee flows in Europe and elsewhere around the 
world.
    So I would just caution that, whatever the United States' 
engagement is in certain multilateral institutions, there are 
other conversations that are taking place, very robust 
conversations that are taking place, to address these matters 
of global concern.
    Senator Kaine. And I understand that, but would either of 
you care to offer a defense for why the United States should 
not be participating in this global compact that we agreed to 
support less than a year and a half ago?
    Ambassador Polaschik. Senator, from the Bureau of Near 
Eastern Affairs' perspective, we would have to take that 
question for the record. I have not been following the issue 
myself personally.
    Senator Kaine. That is fair.
    Ambassador Sales. Likewise.
    Senator Kaine. We will ask it for the record, then.
    Thank you.
    Ambassador Sales. Thank you, Senator.
    Senator Risch. Thank you, Senator.
    I have some questions, but given the lateness of the hour, 
I am going to submit them for the record.
    Senator Risch. Thank you so much for being here. Thank you 
for your service.
    We do a number of these hearings, and I have to tell you 
that your focus and your command of these issues is impressive. 
We sincerely appreciate that.
    Anything else, for the good of the order? If not, we are 
adjourned.
    [Whereupon, at 3:58 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
             Hon. Joan Polaschik by Senator James E. Risch

    Question 1. ISIS is the most prominent Salafi-jihadi group in 
Libya, but other groups are also active there, including al-Qa'ida. 
What conditions allow Salafi-jihadi groups to operate in Libya? And 
what threat do groups like AQIM and Ansar al Sharia pose to the U.S. 
and its allies?

    Answer. While the Government of Prime Minister Sarraj remains a 
committed counterterrorism partner, the Libyan Government lacks 
effective border and internal security forces to prevent terrorist 
groups such as ISIS, al-Qa'ida in the Islamic Maghreb (AQIM), and other 
al-Qa'ida affiliates such as Ansar al Sharia from operating in under-
governed spaces to plot, inspire, and direct terrorist attacks. These 
groups represent a substantial threat to the United States, our 
interests, and our allies. In particular, AQIM and its associates 
aspire to conduct attacks against U.S. interests and those of our 
allies and partners in North Africa and Europe. We continue to develop 
our counterterrorism relationship with Libya to ensure that ISIS and 
other terrorist groups are not in a position to threaten to regional 
security. In the long term, the Libyans must achieve greater political 
stability and build unified and effective national security forces to 
counter terrorism from these groups.

    Question 2. The peace process in Libya is deadlocked. The 
involvement of foreign backers, including U.S. allies and partners that 
back different factions, is prolonging the conflict. What are the 
implications for U.S. interests if the Libya conflict continues to drag 
on? What role should the U.S. play to bring our partners together 
behind a single process?

    Answer. The only viable way to achieve a stable transition to a 
more permanent, unified Libyan Government is through an inclusive, 
Libyan-led, U.N.-facilitated political process, based on the Libyan 
Political Agreement (LPA). Any attempts to impose a military solution 
or bypass the political process will only further destabilize Libya. 
Armed conflict among Libyans will only benefit ISIS and other 
terrorists and empower criminal networks that profit from smuggling 
irregular migrants and illicit arms. Prolonged conflict in Libya would 
continue to threaten U.S. interests and those of our allies, and 
exacerbate an already dire humanitarian situation.
    We strongly support U.N. Special Representative of the Secretary-
General (SRSG) for Libya Ghassan Salame's Action Plan for Libya, which 
offers a roadmap for helping Libyans negotiate amendments to the LPA 
and make the necessary preparations for successful national 
presidential and parliamentary elections in 2018. We have urged the 
international community to unite behind the U.N.'s mediation efforts. 
Proliferating international initiatives will complicate rather than 
advance the cause of peace and stability. Our key regional partners 
have a particularly important role to play in encouraging their Libyan 
contacts to exercise restraint and engage constructively with the U.N.-
facilitated political process.
    The United States also supports Libyan Prime Minister Fayez al-
Sarraj's efforts to promote dialogue and reconciliation. During Prime 
Minister al-Sarraj's visit to Washington earlier this month, President 
Trump, Secretary Tillerson, and other senior U.S. officials underscored 
our commitment to helping Libyans achieve political stability, defeat 
ISIS and other terrorists, and build a better, more prosperous future 
for the Libyan people.

    Question 3. While Khalifa Haftar rejects political Islam, and has 
the support of the Egyptians and the Emiratis, there is concern his 
position on political Islam further fuels extremism as there is no 
place for Islamic political factions to go. How do you see Haftar's 
role in bringing stability to Libya? If we are trying to counter 
terrorism, do efforts to work with Haftar support that goal?

    Answer. There is no military solution to Libya's problems. We 
continue to believe General Haftar should be a part of a negotiated 
political solution to the Libya political crisis, but this will need to 
result from negotiations and compromise from all sides. We remain 
concerned about the potential for conflict between General Haftar and 
forces aligned with Prime Minister al-Sarraj's Government of National 
Accord (GNA), if Libyans do not reach a political solution. Fighting 
among Libyan armed groups will only prolong the suffering of the Libyan 
people and could enable ISIS to reassert itself.
    Prime Minister al-Sarraj has been a reliable partner for the United 
States on counterterrorism. GNA-aligned forces made great sacrifices in 
eradicating ISIS from Sirte, making Libya and the world safer. The 
United States supported those efforts by conducting nearly 500 air 
strikes at the request of Prime Minister al-Sarraj, and we continue to 
coordinate with the GNA on air strikes on ISIS desert camps and other 
targets to prevent ISIS from reestablishing control over territory. To 
defeat ISIS in the long term, Libyans, including General Haftar, must 
come together to achieve political reconciliation and build a more 
unified government and unified national security forces, under civilian 
control. We urge all Libyan forces to unite and turn their guns against 
the real threat of ISIS and other terrorist groups.

    Question 4. The human trafficking problem in Libya is massive. 
Trafficking and smuggling also fund militias in Libya, which fuels the 
conflict. ISIS and al Qaeda also benefit from this smuggling and 
trafficking. How should the U.S. target these smuggling networks and 
other pipelines? How would this affect both the Libyan conflict and the 
ISIS and al Qaeda threat?

    Answer. Transnational crime networks and terrorist groups have 
extended across Africa due to advances in global trade, transportation, 
and communications networks. Despite divergent goals, these groups 
engage in activities that could be mutually reinforcing. Both terrorist 
groups and criminal human trafficking networks have attempted to 
exploit Libya's instability. The only sustainable solution to human 
trafficking in Libya is an inclusive, unified government and unified 
national security forces capable of providing security to the Libyan 
people and controlling Libya's territory and borders. The international 
community must therefore provide full backing to the U.N.-facilitated 
political process, while ensuring that all efforts to counter migration 
in Libya support this process and overall stability.
    Since 2011, the United States has contributed more than $150 
million in humanitarian assistance in Libya. In addition to 
humanitarian assistance that will be determined in FY 2018, this year 
we intend to invest $43 million on stabilization efforts and increased 
border security. We coordinate our assistance with the U.N. and other 
partners, who also have active programs aimed at restoring stability to 
Libya to advance our shared national security interests.
    On December 7, the United States joined with partners at the U.N. 
Security Council in adopting a Presidential Statement to call attention 
to reports of migrants being sold into slavery in Libya. The Security 
Council welcomed the Libyan Government of National Accord's 
announcement that it will investigate the allegations and hold 
perpetrators to account. We will continue to work with Libya and the 
international community to combat human trafficking.

    Question 5. Given the attacks that have occurred in the Sinai, and 
especially the recent Rawdah attack, have the Egyptians requested U.S. 
support in their fight against terrorism? What specifically have they 
requested?

    Answer. We continue to see strong interest from Egypt in 
counterterrorism cooperation and we have a robust set of training and 
security assistance programs to support their efforts. Even prior to 
the November 24 attack, the United States was responding to many of 
Egypt's counterterrorism-focused procurement requests. For example, 
nearly 1000 Mine-Resistant Ambush Protected (MRAP) vehicles, seen by 
Egypt as a key counterterrorism tool, have been provided to the 
Egyptians under the Excess Defense Articles program over the past year. 
Over the past two years, the United States has also provided increased 
counter-IED training to Egypt.
    The United States continues to work with Egypt to address the 
challenges posed by terrorism, as we seek to enhance Egyptian capacity 
through multiple avenues. In September 2017, for the first time since 
2009, the United States and Egypt conducted the joint military exercise 
``Bright Star'' with a new focus on counterterrorism operations. Egypt 
and the United States also recently concluded our first Defense 
Resourcing Conference, in which we agreed on a Five Year Security 
Assistance Roadmap (FYSAR) that identified key procurement requests 
based on Egypt's capability gaps and operational needs. The FYSAR 
prioritizes U.S. security assistance to Egypt within a framework of 
counterterrorism, Sinai security, maritime security, and border 
security. However, it will take time for Egypt to adopt strategies, 
doctrine, tactics, systems, and technologies that are more appropriate 
and effective for addressing their current security challenges. Our 
renewed engagement through the FYSAR is an important tool to facilitate 
that transition and reorient our mutual security assistance priorities.

    Question 6. How effective are Egyptian counterterrorism forces in 
providing the types of proactive surveillance and patrolling necessary 
to identify and prevent attacks?

    Answer. Egypt remains an important strategic partner, which 
continues to face a number of security challenges. Building on decades 
of strong security ties, we are seeing growing counterterrorism 
cooperation across a wide range of programs. In particular, we are 
working with Egyptian counterterrorism forces to build their capacity 
to effectively provide the types of proactive surveillance and 
patrolling necessary to identify and prevent attacks. Our efforts 
include training Egyptian law enforcement instructors on Explosive 
Incident Countermeasures (EIC), to include practical exercises against 
a wide range of explosive targets. In the coming year, Law Enforcement 
Units will be trained in improving counterterrorism tactics, improving 
aviation security through the provision and training of new equipment 
and bomb sniffing canines, and modernization of Egypt's doctrine away 
from conventional conflict towards the asymmetrical threat it now 
faces. We stand ready to continue to assist Egypt to improve its 
effectiveness at countering terrorism.

    Question 7. Do these attacks mark a new phase for ISIS and CT 
efforts in the region? How concerned are you that ISIS is now turning 
its attention toward Israel, especially its cooperation with Hamas?

    Answer. The United States is concerned about the increasing 
sophistication and lethality of ISIS attacks in the Sinai. We have 
growing concern that ISIS's Sinai affiliate is gaining strength in the 
Nile River Valley and mainland Egypt, as evidenced by double church 
bombings in early 2017 and the mosque attack on November 24. To date, 
ISIS-Sinai has focused its attacks on Egyptian security forces, 
tourists, and religious minority groups in an effort to destabilize and 
discredit the Egyptian Government. We are committed to helping Egypt 
defeat the threat from ISIS-Sinai through increased security 
cooperation.
    The United States is also concerned about the threat ISIS poses to 
the security and stability of the entire region. Israel is a long 
standing U.S. counterterrorism partner with sophisticated 
counterterrorism capabilities, and we support Israel and other partner 
nations in the region in their counterterrorism efforts against a range 
of terrorist groups. While at this time we do not assess that Hamas and 
ISIS are cooperating, we closely monitor both ISIS's and Hamas's 
strategy and tactics and adjust our approaches accordingly. Exploiting 
fissures between terrorist groups is can be an effective 
counterterrorism strategy.

    Question 8. What is your assessment of Tunisia's political 
stability and efforts to improve its security forces?

    Answer. Tunisia has made important progress in political reform 
since the 2011 revolution. It held successful presidential and 
parliamentary elections, finalized a progressive new constitution in 
2014, and has a vibrant civil society and free press. Tunisia is also 
building the capacity of its security forces, which have demonstrated 
improved performance, particularly in border security and 
counterterrorism operations.
    Tunisia's transition to democracy is nevertheless fragile. Economic 
opportunities have lagged. There is intense public frustration over 
unemployment, perceived corruption, and the slow pace of reform. We are 
encouraged by Prime Minister Chahed's efforts to press forward with 
critical reforms to address these challenges, in partnership with the 
International Monetary Fund. We also have encouraged Tunisia to move 
ahead with municipal elections, currently scheduled for March 25, 2018. 
The municipal elections are an important step for consolidating 
Tunisia's democracy, and offering an opportunity to re-engage youth in 
the political process. We maintain an ongoing dialogue with government 
officials and civil society members about a full range of political 
issues in Tunisia.
    The United States is helping consolidate stability and democracy in 
Tunisia by promoting business growth, job creation, and bilateral 
trade; urging Tunisia leaders to continue to strengthen governance, 
respect for the rule of law, and human rights protections; assisting 
civil society to effectively interact with government and helping 
Tunisia reorient its military and civilian security forces to be more 
responsive to the ongoing terrorist threat.

    Question 9. What is the status of the joint NATO-Tunisia 
Intelligence Fusion Center?

    Answer. There is not currently a joint NATO-Tunisia Intelligence 
Fusion Center, and we are not aware of any plans to establish one. NATO 
provided limited, unclassified advisory support when the Tunisian 
military established its own intelligence fusion center three years 
ago.
Regional Cooperation
    Question 10. Can you please describe some of the specific actions 
the Europeans are taking to confront these security challenges?
    Answer 10. We work closely with our European partners to advance 
efforts in resolving conflicts across the region. The United States 
European allies are key financial, material, and diplomatic 
contributors to stabilization efforts, particularly in Syria, Iraq, and 
Libya. This helps combat the conditions that enabled organizations like 
ISIS and al-Qa'ida to flourish. Our European partners are also a vital 
source of manpower for a number of counterterrorism initiatives 
currently taking place across the Middle East, which the Department can 
brief in a classified setting.
    In addition, NATO has been a critical partner for the United States 
and is a cornerstone of U.S. national security. NATO adds unique value 
in the fight against terrorism and recently increased its overall 
counterterrorism efforts at the NATO's Leaders Meeting in May. NATO is 
working its way through a robust combating terrorism action plan, is a 
member of the D-ISIS Coalition, has established a high level CT 
coordinator, and is doing important work on sharing information to 
address foreign terrorist fighter and other terrorism-related 
challenges.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Hon. Nathan Sales by Senator Robert Menendez

Libya
        Like many of my colleagues in the Senate, I am alarmed by the 
        awful conditions migrants face in Libya as well as the 
        abhorrent slave markets that recently were prominently featured 
        in U.S. and international media outlets. You mentioned during 
        the hearing that Secretary Tillerson raised the issue with 
        Libyan Prime Minister Sarraj during his meeting on December 1.

    Question 1. Could you provide us with more specifics about that 
conversation? What efforts, if any, is the Libyan Government taking to 
address the issue?

    Answer. Secretary Tillerson and other senior U.S. officials 
discussed allegations of trafficking in persons with Libyan Prime 
Minister Fayez al-Sarraj during his November 30-December 5 visit to 
Washington. Prime Minister al-Sarraj reiterated the commitment that his 
Government of National Accord (GNA) made publicly to investigate the 
allegations of trafficking in persons and hold perpetrators 
accountable. We understand that the GNA's interagency committee is 
actively carrying out this investigation. Since December 6, the GNA has 
also encouraged U.N. High Commission for Refugees (UNHCR), the 
International Organization for Migration (IOM), and other agencies to 
open offices in Libya and invited the U.N. High Commissioner for Human 
Rights (OHCHR) to regularly monitor and report on refugees and migrants 
in Libya, including those detained in official detention centers.
    U.S. efforts are focused on reinforcing the GNA's condemnation of 
human trafficking and its commitment to investigate fully these reports 
and hold those responsible to account. The United States supported a 
December 7 U.N. Security Council Presidential Statement that expressed 
grave concern about these reports, condemned such actions as heinous 
human rights abuses, and called upon authorities to investigate such 
activities and bring perpetrators to justice. The United States 
continues to contribute to assistance programs that support the 
humanitarian needs of refugees, migrants, and individuals in detention 
in Libya. Prime Minister al-Sarraj and the GNA are a vital partner in 
efforts against human trafficking.

    Question 2. You also noted some of the steps the United States has 
taken to mitigate the crisis such as working with IOM but underscored 
the importance of a multifaceted approach. In what ways can we engage 
with our allies to address this situation? Has Secretary Tillerson 
raised this issue with our regional partners?

    Answer. To address the irregular migration crisis emanating from 
Libya, the United States continues to engage with our allies 
bilaterally and multilaterally. On December 7, the United States joined 
with partners at the U.N. Security Council in adopting a Presidential 
Statement to call attention to reports of migrants being sold into 
slavery in Libya and condemn such actions as heinous abuses of human 
rights. The Security Council welcomed the Libyan Government of National 
Accord's (GNA) announcement that it will investigate the allegations 
and hold perpetrators to account. The United States has consistently 
worked to address the migration issue in Libya, through both 
humanitarian assistance and support for the stabilization process. 
Since 2011, the United States has contributed more than $150 million in 
humanitarian assistance for Libya to help refugees and migrants, as 
well as those displaced by violence. We coordinate our assistance with 
the U.N. and other partners, who have active programs aimed at 
supporting the humanitarian needs of refugees and migrants and 
restoring stability to Libya to advance our shared national security 
interests. In addition, we continue to coordinate our border security 
assistance with European partners through the EU Border Assistance 
Mission (EUBAM) to Libya. EUBAM was originally established in 2013 and 
continues to engage with Libyan officials to counter the trafficking of 
persons from Libya to Europe. We are also supporting the efforts of the 
G5 Sahel to counter terrorism and improve security in the Sahel region. 
In October, Secretary Tillerson announced that the United States will 
contribute $60 million in bilateral to support the G5 Sahel's joint 
counterterrorism force.
    We also strongly support U.N. Special Representative Ghassan 
Salame's efforts to advance political reconciliation and help end the 
conflict in Libya. The only long-term solution to the challenge of 
migration through Libya is to help Libyans build a more unified 
government and unified national security forces capable of stabilizing 
the country and securing its borders.
Tunisia
    Question 3. I am extremely concerned with the multiple delays in 
Tunisia's local elections originally scheduled for 2016 and most 
recently postponed until March 2018. What is the State Department's 
position on the delayed elections?

    Answer.Municipal elections are an important step in Tunisia's 
democratic consolidation, and we support the Tunisian Government's 
efforts to proceed as quickly as possible. Following a series of 
technical delays, we are encouraging Tunisian leaders at the highest 
levels to move ahead with what will be the country's first municipal 
elections. The latest announced date for municipal elections is May 6, 
2018 based on a formal decree issued by President Beji Caid Essebsi on 
December 19, 2017.
    The Tunisian parliament also has an important role to play in 
creating an appropriate legal framework for municipal authorities to 
work within after elections. We expect the Tunisian parliament will 
soon finalize and pass legislation that will define the mandate of the 
municipal authorities.

    Question 4:. Do you view these postponements as a worrisome sign? 
What are we doing in country to encourage a continuation of the 
democratic process?

    Answer. Tunisia has made important progress in political reform 
since the 2011 revolution. It held successful presidential and 
parliamentary elections, finalized a progressive new constitution in 
2014, and has a vibrant civil society and free press. This year, 
Tunisia passed numerous laws enhancing personal and economic rights, 
including a law against gender-based violence. President Beji Caid 
Essebsi also repealed a decree banning Muslim women from marrying non-
Muslims. Municipal elections will be another important step in 
Tunisia's democratic transition, and we are encouraging Tunisian 
leaders to move ahead. The election is currently scheduled to take 
place on May 6, 2018 based on a formal decree issued by President 
Essebsi on December 19, 2017.
    We assess that Tunisia remains on a positive track in its political 
transition, but its democracy is still fragile and it continues to 
require international support. We regularly collaborate with the 
Government of Tunisia and civil society on a range of democratic 
governance and human rights issues. Our assistance programs support 
Tunisian efforts to promote open and transparent governance, improve 
how government ministries and parliament communicate with citizens, 
organize and administer successful elections, and strengthen the 
effectiveness of civil society organizations.

    Question 5. We have heard concerning reports about a draft law in 
Tunisia similar to Egypt's restrictive NGO law that limits foreign 
funding. What can the State Department tell us about this draft 
legislation and what are we doing in Tunisia to encourage a strong and 
vibrant civil society?

    Answer. We understand the Tunisian Government is considering new 
proposed legislation that would aim to create a more efficient and 
transparent mechanism for registering and administering civil society 
groups, and to address illicit foreign financing.
    The Tunisian Government has committed to draft the new law with 
input from civil society organizations; at this stage no new 
legislation has been drafted. The Tunisian Government has confirmed to 
us that any new legislation would respect freedom of association and 
would not impose any cap on foreign funding. We meet frequently with 
Tunisian Government officials and civil society activists to discuss 
this proposed legislation as well as the status of civic engagement in 
Tunisia.
    In addition, to date the democratically elected and independent 
Parliament has shown its commitment to an iterative and consultative 
legislative process.
    Recognizing the importance of this proposed law to the development 
and empowerment of Tunisian civil society, U.S. foreign assistance 
supports programs that develop a strong and vibrant civil society in 
Tunisia. Current U.S. funded programs in Tunisia, implemented by State 
and USAID, foster dialogue between the Government and civil society 
actors to ensure that their perspectives are incorporated in the 
resulting legislation, strengthen civil society and citizens' capacity 
to engage the Tunisian Government on local governance issues, prepare 
marginalized Tunisian communities to play an active role in the 
political process, support training for local government officials as 
well as journalists and other media professionals, and foster community 
dialogues about security sector and legal reform.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Hon. Joan Polaschik by Senator Tim Kaine

Embassy Security
    Question 1a. In light of the President's announcement on the 
relocation of our Embassy in Israel to Jerusalem, please detail: [What 
are] The additional security measures that have been put in place to 
prepare for any violence or instability?

    Answer. The Department identified a number of countries that were 
considered to be most likely or possible to experience unrest. These 
were then categorized into High and Medium tiers. Posts assessed as 
being at the highest risk were required to convene Emergency Action 
Committees (EACs) and assess security; posts assessed at lesser risk 
were also notified of the impending decision and were encouraged to 
convene EACs. In the EAC, posts reviewed and enhanced their security 
profiles for threats from demonstrations and terrorist attacks, and 
sought additional assistance and resources from both the U.S. 
Government and host nation authorities.
    For posts that requested additional U.S. resources, the State 
Department's Bureau of Diplomatic Security (DS) Office of Mobile 
Security Deployments (MSD) sent DS Special Agents with additional 
training to Algiers, Algeria; Amman, Jordan; Cairo, Egypt; Entebbe, 
Uganda; and Muscat, Oman. Operational Medicine personnel were located 
with each team, and agents in Entebbe and Muscat were deployed with 
contract aviation assets to provide a shorter response time to the 
surrounding region. Additional DS Agents augmented security support in 
Tel Aviv, Israel, Dhaka, Bangladesh, and Riyadh, Saudi Arabia. At each 
step, DS closely coordinated with Department regional and functional 
bureau counterparts, the U.S. Department of Defense (DoD), and other 
interagency colleagues to ensure shared awareness of plans and the 
disposition of available resources for potential contingency response.
    In addition, DS augmented the U.S. Secretary of State's (SECSTATE) 
protective detail, the U.S. Ambassador to the United Nation's 
protective detail, the Saudi Ambassador and Foreign Minister's details, 
and the Israeli Ambassador and Defense Attache details. This included 
counterassault and counter-surveillance teams, additional local 
uniformed police, and local law enforcement augmentation at foreign 
missions across the United States.

    Question 1b. What military assets, including additional Marine 
Security Guards, have been deployed to the region and globally to 
augment Embassy security?

    Answer. The State Department deployed Marine Security Augmentation 
Units (MSAU) to Amman, Jordan; Cairo, Egypt; Jerusalem and Tel Aviv, 
Israel; and Khartoum, Sudan. The units in Cairo, Tel Aviv, and 
Jerusalem were originally tasked with supporting the Vice President's 
visit, but were also available to support the posts, if required. For 
information on other military assets deployed, the Department defers to 
DoD.

    Question 1c. Please detail the Department's risk assessment of 
terrorist groups (such as Hamas, Hezbollah, ISIS) using this 
announcement to incite further violence and acts of terrorism.

    Answer. Please see the classified response to this question.
Global Compact on Migration
    Question 2. I was stunned with President Trump's decision to 
withdraw from a global international dialogue on migration. Every 
nation in the world signed on to a non-binding declaration in September 
2016 to determine best practices for a global migrant and refugee 
process that is growing exponentially and only getting worse. A 
conference in Mexico the first week in December intended to bring 
together global stakeholders to begin this dialogue on best practices. 
Did the State Department send any representatives to the conference?

    Answer. No. The United States did not send representatives to this 
conference because we withdrew from engagement in the Global Compact on 
Migration discussions.

    Question 3. Do you believe we will be better able to deal with 
these issues if the U.S. is absent from a global dialogue about the 
extent of the problem?

    Answer. Yes. National sovereignty is the fundamental basis for 
international cooperation. The United States will continue to cooperate 
internationally on migration issues, but it is the responsibility of 
sovereign states to ensure that migration is managed consistent with 
national laws and policies, while complying with their international 
obligations.

    Question 4. Do you believe that if the United States remained a 
part of the Compact on Migration, we could have shaped the discussion 
to align with U.S. interests?

    Answer. No. The negotiations on the GCM will be based on the New 
York Declaration, a document adopted by the U.N. in 2016 that sets 
forth contributions to the ``global governance'' of international 
migration as among the goals for the GCM and contains a number of 
policy goals that are inconsistent with U.S. law and policy.

    Question 5. Do you believe a non-binding treaty, which includes 
voluntary commitments impinges on U.S. sovereignty?

    Answer. Primary jurisdiction to set their respective domestic 
immigration laws and policies rests with sovereign nations. A global 
instrument like the GCM that aspires to strengthen ``global 
governance'' of migration could contain commitments related to the 
entry and stay of migrants that are inconsistent with the United 
States' immigration laws and policies, which are within the United 
States sovereign authority.
Counterterrorism in North Africa
    Question 6. The U.S. military presence continues to grow across 
North Africa and the Sahel mainly for counterterrorism operations. The 
events in Niger that resulted in the death of four U.S. service members 
highlight the blurring line between ``advise and assist'' missions and 
combat operations. Please discuss the threat in this region and CT and 
border coordination between Niger with Algeria and Libya.

    Answer. Please discuss the threat in this region and CT and border 
coordination between Niger with Algeria and Libya. Counterterrorism 
(CT) efforts in North Africa are a crucial part of our global campaign 
against ISIS, al-Qa'ida, and their affiliates, as these organizations 
continue to threaten U.S. interests and those of our allies. Our 
primary goal in the region is to prevent terrorist organizations from 
establishing safe havens from which they can threaten the United States 
and its interests. As ISIS loses control over territory in its core, it 
is essential that we prevent it from reconstituting itself elsewhere. 
ISIS maintains networks in North Africa that seek to conduct or inspire 
attacks on the continent and in Europe. Furthermore, there are many 
North African foreign terrorist fighters (FTFs) among the ranks of ISIS 
militants in Iraq and Syria, and we must remain vigilant against the 
threat posed by FTFs returning home. We also remain concerned about al-
Qa'ida's affiliates in the region, especially al-Qa'ida in the Islamic 
Maghreb (AQIM), and their growing reach into other parts of Africa.
    Cooperation on counterterrorism, information sharing, and border 
security is important to counter the terrorist threat in North Africa. 
Algeria is one of our most capable CT partners in the region, and the 
Algerian Government is working to mitigate the FTF threat and enhance 
security on its border with Libya and Niger. We are encouraging Algeria 
to continue to use its considerable expertise to help other Trans-
Saharan states build their capacity to counter terrorism.
    Libya's ongoing political divisions and instability remain a 
significant challenge. Libyan Prime Minister Fayez al-Sarraj's 
Government and its aligned forces have been stalwart U.S. CT partners. 
With support from U.S. airstrikes, our Libyan partners expelled ISIS 
from Sirte, which was once its principal stronghold outside Iraq and 
Syria. We continue to coordinate with Prime Minister al-Sarraj's 
Government on strikes on ISIS desert camps and other targets to prevent 
it from regrouping. To defeat ISIS, al-Qa'ida, and other terrorists in 
the longer term, and establish effective control over their country's 
borders, Libyans must achieve political reconciliation to build a more 
stable, unified government and national security forces, under civilian 
control.
    Niger maintains a relatively small 17,000-person security force 
charged with securing the country's borders, among other security 
priorities. Terrorist organizations and transnational traffickers use 
Niger's northern spaces to travel between Libya and Mali. In addition, 
terrorist organizations operate in Niger's western tri-border region 
with Mali and Burkina Faso and along its southern border where ISIS-WA 
and Boko Haram operate. This three-pronged threat remains difficult for 
Niger to address. The G-5 Sahel Joint Force (Mauritania, Mali, Burkina 
Faso, Niger and Chad) and the Multinational Joint Task Force (Nigeria, 
Niger, Cameroon, Chad, and Benin) assist Niger to fight these threats. 
The United States maintains a robust bilateral assistance program with 
Niger through the Trans-Sahara Counterterrorism Partnership and other 
mechanisms.

    Question 7. How frequent are high risk CT raids involving U.S. 
personnel becoming in North Africa as we work to combat ISIS and al-
Qaeda affiliates?

    Answer. I would defer to the Department of Defense for the details 
of their counterterrorism operations involving U.S. personnel in North 
Africa.

    Question 8. What is the role of State CT in reviewing and providing 
input on counterterrorism operations in Niger? Does the Embassy have a 
role in reviewing these decisions?

    Answer. The Department of Defense (DoD) provides advise/assist/
accompany support to counterterrorism elements of the armed forces of 
Niger. On the civilian side, a number of State Department bureaus-
including African Affairs, CT, Near Eastern Affairs, Legal, and 
Political-Military Affairs-develop counter-terrorism strategy and 
implement approved policies and programs related to Niger and its 
neighbors. Embassy Niamey and other relevant diplomatic posts in the 
region join these interagency discussions and provide input on drafted 
materials, coordinated through their State Department country desks.
    In addition to its role in strategy and policy development, the CT 
Bureau also provides foreign assistance to help Nigerien civil 
authorities build their civilian counterterrorism capacities. We 
support border security-related training, the Personal Identification 
Secure Comparison and Evaluation System (PISCES), Anti-Terrorism 
Assistance, a DOJ special prosecutor as a Resident Legal Advisor, and 
countering violent extremism programs. The CT Bureau and the Bureau of 
Diplomatic Security manage the law enforcement component of the annual 
FLINTLOCK-series of DoD exercises that seeks to improve the military-
law enforcement interface of Niger and other west African states that 
participate in the exercises.

    Question 9. What is your assessment of the larger long-term threat 
to the region, al-Qaeda or ISIS? Or more local groups, such as Boko 
Haram that adopt transnational causes. Do they compete for the same 
resource pool? How do their goals overlap and differ?

    Answer. Both ISIS and al-Qa'ida (AQ) have affiliated and associated 
groups in northern Africa. In almost all cases, ISIS and AQ have either 
managed to graft themselves on to existing terrorist groups, or those 
groups have chosen to affiliate with them. Accordingly, the nature and 
goals of these ISIS and AQ offshoots tend to be highly context- and 
region-specific.
    Our most immediate concern is that ISIS will attempt to disperse or 
relocate fighters to Africa from its collapsing core in Syria and Iraq, 
and that this will allow it to reinforce existing groups and enhance 
their ability to threaten the region, Europe, and U.S. interests.
    We also remain concerned about the continuing threat from AQ's 
affiliates in the region-especially al-Qa'ida in the Islamic Maghreb 
(AQIM), which is the outgrowth of the Armed Islamic Group that 
terrorized Algeria in the 1990s, and Jama'a Nusrat ul-Islam wa al-
Muslimin' (JNIM), a consortium of three terrorist groups responsible 
for attacks on hotels and resorts, including ones in which U.S. persons 
were killed.
    While ISIS remains largely estranged from local populations in 
North Africa, AQIM has more successfully melded into local dynamics. 
While these organizations compete for recruits and ideological primacy, 
their distinct networks do not necessarily compete for financial 
resources. Both organizations seek to take over the region, attack our 
allies and interests, and impose their harsh ideology.
Stability in North Africa:
    Question 10. How do you think the region will be able to deal with 
its rising income inequality, youth bulge, and financial crisis in the 
next few years? Is it headed for a major crisis? What is the State 
Department doing [to] help with economic reforms? Do you think we 
could/should do more?

    Answer. The State Department continues to monitor the region 
closely and recognizes the significant challenges to regional stability 
posed by social and economic issues. The State Department, through 
bilateral dialogues and support of economic reform programs guided by 
international financial institutions, continues to encourage 
sustainable, long-term economic growth that will contribute to a more 
stable, resilient North Africa, and the region as a whole. However, we 
recognize that development assistance alone is not enough to secure the 
region's future economic growth. We are encouraging governments to 
create an enabling environment for the private sector to make its 
contribution to development goals. With the right opportunities, the 
region's growing population will be an engine of economic growth, as 
young people contribute to a productive labor force.
    States across North Africa continue to contend with a variety of 
economic challenges, including unemployment, income inequality, and a 
growing youth population. Many of these countries are taking proactive 
steps to address their economic challenges.
    For instance, in Morocco, the Government continues to promote 
economic growth by encouraging private investment and diversification. 
The Government of Morocco is working to address inequality by 
decentralizing government, holding public officials accountable for the 
implementation of development projects, and working to improve 
vocational training and access to economic opportunities.
    In Algeria, the Government is working to diversify the economy away 
from its traditional reliance on hydrocarbons to spur growth and create 
new opportunities for youth employment. Algeria is concurrently seeking 
to reform its hydrocarbon sector to attract new foreign investment and 
exploring the possibility of developing shale gas to drive additional 
economic growth.
    In Tunisia, economic opportunities have lagged behind the 
unprecedented opening for free political expression that followed the 
2011 revolution. With U.S. encouragement, the Government is focusing on 
advancing economic reforms, which include restructuring the banking 
sector and reducing public sector expenditures in coordination with its 
$2.9 billion IMF Extended Fund Facility loan. These reforms are the key 
to spurring long-term, private sector-led economic development and 
addressing the economic grievances that sparked the revolution.
    Post-revolution Libya's political and security problems have 
created steep economic challenges, including significantly reduced oil 
production, dwindling foreign reserves, exchange rate distortions, a 
bank liquidity crisis, and contested leadership of the country's key 
economic institutions. Over the past 15 months, however, Libya has 
begun to rebuild its oil sector, tripling output since September 2016. 
We have worked closely with key stakeholders from the Government of 
National Accord and Libyan economic institutions, including the Central 
Bank of Libya and the National Oil Company, to help them reach 
agreement on key economic policy measures. In 2017, Libya passed its 
first annual budget since 2013, an important step toward restoring the 
Government's ability to provide basic services to the Libyan people.
    In Egypt, the Government implemented a series of politically 
difficult reforms in 2016 that saved the economy from crisis. Since 
then, Egypt's economy has stabilized and financial markets have 
improved markedly. Egypt has significant structural issues to tackle 
such as a bloated and inefficient bureaucracy. Still, the IMF assesses 
Egypt's reform program is broadly on track.
    In addition to bilateral programs, the State Department works 
across the region through Middle East Partnership Initiative (MEPI) 
funding for the Department of Commerce's Commercial Law Development 
Program (CLDP). Through this program, we are engaging on business 
formation, contract enforcement, insolvency law, currency conversion, 
royalty repatriation issues, and franchising. Improving these economic 
and legal issues will strengthen economies and make them more resilient 
in the face of financial shocks.
Tunisia:
    Question 11. How fragile is Tunisia's democracy and what more can 
be done to shore it up? Should we be concerned that Tunisia may be 
backsliding?

    Answer. Tunisia has made important progress on social and political 
reform since the 2011 revolution. It held successful presidential and 
parliamentary elections, finalized a progressive new constitution in 
2014, and has a vibrant civil society and free press. This year, 
Tunisia passed a law against gender-based violence, and the President 
repealed a decree banning Muslim women from marrying non-Muslims, 
making it the only country in the Middle East and North Africa that 
legally allows women to marry non-Muslims.
    Despite this, Tunisia's transition to democracy remains fragile. 
U.S. assistance employs a balanced approach to help Tunisia meet its 
interrelated political, security, and economic challenges. Since 2011, 
the United States has provided nearly $575 million to help Tunisia 
enhance its national security, as well as over $580 million for 
programs focused on economic growth and economic reform. We have also 
provided over $235 million for programs that promote democracy, good 
governance and human rights, and we regularly engage with senior 
government officials on these issues. We encourage Tunisian leaders to 
continue to make progress on political reforms, for example, by moving 
ahead with municipal elections. We regularly consult with Tunisian 
civil society and support its critical role in contributing to public 
debate and advancing democracy.
    To consolidate the country's democracy, the Tunisian Government 
needs to maintain the pace of progress it has made in addressing 
security concerns and must also make further headway in addressing 
Tunisia's significant economic challenges. Intense frustration over 
high unemployment and perceived corruption continues to undermine 
public confidence in the democratic transition.

    Question 12. Tunisia's Parliament is currently considering a draft 
law that would criminalize even mild criticism of Tunisian security 
services with significant prison time as well as grant security 
personnel impunity for use of excessive force against civilians. If 
Tunisia moves forward with such a draconian law, how would this impact 
the U.S.-Tunisian partnership?

    Answer. We are closely monitoring this draft law. In November, the 
Tunisian Parliament conducted public hearings with Tunisian and 
international non-governmental organizations (NGOs) and civil society 
groups on the contents of this draft legislation. During these 
hearings, the NGOs and civil society groups clearly voiced their 
concerns about the draft law. Following this exchange, Parliament 
tabled the law for further review to take into account the concerns 
voiced by civil society and to ensure that the resulting draft strikes 
a balance between supporting Tunisia's security forces and upholding 
Tunisia's commitment to protect human rights. We will continue to 
engage with the Tunisian Government, Tunisian parliamentarians, and 
civil society actors to track the progress and content of this 
legislation. We maintain an ongoing dialogue with Tunisian Government 
officials on democracy and human rights issues, including the values of 
government transparency and respect for freedom of speech that have 
been central aspirations of Tunisia's revolution.

    Question 13. The human rights situation in Egypt remains 
concerning. Under a new law signed by President al-Sisi last May, NGOs 
have been severely restricted from operating in the country. Egypt also 
continues repression against the LGBT community, with reports of 
arrests and invasive medical exams on perceived LGBT individuals 
bordering on torture. Free speech and assembly have been curtailed and 
many minority groups fear persecution and violence. What is State doing 
to express concern over this kind of repression and what has been the 
Egyptian Government response? What leverage do we have to pressure the 
Egyptian Government to better address these issues?

    Answer. The Trump administration remains deeply committed to our 
strategic relationship with Egypt. However, we continue to have serious 
concerns about the human rights situation, including restrictions on 
freedoms of peaceful assembly, association, and expression. President 
al-Sisi's signature of the restrictive NGO law, which threatens the 
ability of civil society to function without interference, and the 
arrests targeting the LGBTI community are just two examples of this 
broader problem. We continue to raise our serious concerns about these 
issues with senior Egyptian Government officials, and stress the 
fundamental importance of respect for human rights and the need for a 
robust civil society for Egyptian stability and prosperity. We are also 
engaged in a frank dialogue about the 2013 convictions of 41 employees 
of U.S. NGOs. We consider resolution of these issues to be fundamental 
to advancing our bilateral relationship.
    The lack of progress in response to U.S. policy concerns thus far 
contributed to Secretary Tillerson's August 2017 decision to withhold 
the expenditure of $195 million in Fiscal Year 2016 Foreign Military 
Funds after issuing a national security waiver. The Secretary was 
unable to certify that Egypt was advancing democracy and human rights, 
but the Secretary issued the waiver because maintaining our security 
relationship with Egypt remains in our national interest. The Secretary 
also decided at that time to reprogram $95.7 million in economic and 
military assistance for use in other high priority countries as another 
way to indicate our concern. The Secretary is focused on ensuring that 
our foreign assistance delivers on U.S. interests, and delivers value 
for the American people, and the decision to withhold expenditure of 
the $195 million in FMF reinforced our determination in this regard.
    The Government of Egypt and the Trump administration are committed 
to improving our partnership, and that desire, and the mutual benefits 
for both our nations from a strong relationship, are powerful 
incentive. We will continue to engage the Egyptian Government at the 
most senior levels on how it plans to better address U.S. concerns, 
hopefully preventing a recurrence of this situation.
Algeria
    Question 14. Abdelaziz Bouteflika, who is nearly 80 years old and 
has been largely incapacitated by a stroke, has been President of 
Algeria since 1999 and removed term limits allowing him to be President 
for life. What is State's assessment of the likely succession plan for 
Boutefilka and Algeria's preparations for a peaceful transition of 
power?

    Answer. Algeria's next presidential election is in 2019. 
Constitutional reforms announced in January 2016 reinstituted a two-
term limit on the presidency, a limit previously removed before 
President Bouteflika ran for a third term in 2009. Algeria has clearly 
delineated, constitutionally mandated succession procedures. We fully 
expect the Government will follow them if the need arises.
Morocco
    Question 15. Morocco has been a leader in the region for promoting 
counter-radicalization and sponsoring moderate representations of 
Islam. King Mohammed VI in particular has been particularly vocal in 
this space. Do you think Morocco can lead the rest of the region in 
this effort? How can the Sunni Arab countries better work together to 
address shared concerns of extremism?

    Answer. The Moroccan Government actively implements its national 
strategy for countering violent extremism (CVE) and promoting 
traditional Maliki Islam. King Mohammed VI's descent from the Prophet 
Mohammed and his constitutional role as Morocco's ``Commander of the 
Faithful'' give him religious legitimacy to advance CVE efforts. To 
help other countries in Africa develop their capacity to counter 
violent extremist ideology, Morocco has opened an international imam 
training center in Rabat that has provided a moderate religious 
curriculum to over 700 imams and preachers from Mali, Cote d'Ivoire, 
France, Tunisia, Guinea, Libya, and Nigeria. Morocco's efforts to 
counter flows of foreign terrorist fighters (FTFs) include counter-
radicalization programs, especially within prisons.
    Morocco co-chairs the Global Counterterrorism Forum (GCTF) and 
previously co-chaired the GCTF FTF working group under the auspices of 
which Morocco co-led the effort to develop The Hague-Marrakech 
Memorandum on Good Practices for a More Effective Response to the FTF 
Phenomenon, which the U.N. Security Council drew upon when drafting 
U.N. Security Council Resolution (UNSCR) 2178. As a member of the 
GCTF's CVE Working Group, Morocco shares good practices on messaging 
with other GCTF members and non-members. Morocco has valuable lessons 
to share with its neighbors and it can play a particularly effective 
leadership role in Africa. Several other Sunni Arab countries have 
similar domestic, regional, and even international programs to counter 
violent extremist ideology and promote traditional religious 
interpretations and discourse.
Western Sahara
    Question 16. Do you see any progress in the near future in 
resolving the dispute over Western Sahara? What role can the United 
States play in the peace process?

    Answer. We support the U.N.-led diplomatic process for Western 
Sahara and efforts to find a peaceful, sustainable, and mutually 
acceptable political solution to the conflict that provides for the 
self-determination of the people of Western Sahara. We support the work 
of the U.N. Secretary-General's Personal Envoy for the Western Sahara, 
as well as the mandate of the U.N. Mission for the Referendum on 
Western Sahara (MINURSO) peacekeeping mission.
    In August, the U.N. Secretary General appointed former German 
President Horst Kohler as his new Personal Envoy for Western Sahara. To 
date, Personal Envoy Kohler has met with the heads of state of Morocco, 
Algeria, and Mauritania and with the Polisario's leadership. However, 
Morocco and the Polisario have not met directly since 2012, and 
tangible progress in resolving the dispute over Western Sahara will 
require the parties to work together.
Libya
    Question 17. What is the long-term political solution for Libya and 
are neighboring and regional states playing a helpful or harmful role?

    Answer. The United States desired end-state in Libya is a more 
inclusive government capable of providing security to the Libyan 
people, addressing their economic and humanitarian needs, and 
partnering with the international community to defeat ISIS and other 
terrorists. President Trump and Secretary Tillerson welcomed Prime 
Minister Fayez al-Sarraj to Washington on December 1 and discussed the 
need to move forward with political reconciliation.
    The United States strongly supports U.N. Special Representative 
Ghassan Salame's efforts to help the Libyan parties negotiate a 
political solution within the framework of the Libyan Political 
Agreement and prepare for successful national elections in 2018. Prime 
Minister al-Sarraj's Government continues to face many challenges, but 
it has also taken important steps to stabilize the country, including 
through counterterrorism partnership with the United States to defeat 
ISIS. Ultimately, only a political solution and a peaceful transition 
can stabilize Libya. Attempts to bypass the U.N.-facilitated process or 
impose a military solution would only destabilize Libya and benefit 
only ISIS and other terrorists.
    Increased international alignment is critical to stabilizing Libya, 
and it has been a core goal of our diplomatic efforts. The United 
States urges the international community and all states in the region 
to support U.N. mediation efforts. We continue to closely coordinate 
with our partners in the region on how to address the situation in 
Libya. Libya's neighbors and other key countries in region have a 
critical role to play in urging Libyan contacts to engage 
constructively with the U.N.-facilitated process.

    Question 18. How are peace talks between the warring factions 
progressing?

    Answer. The only viable way to achieve a stable transition to a 
more permanent, unified Libyan Government is through the Libyan-led, 
U.N.-facilitated political process, within the framework of the Libyan 
Political Agreement (LPA). We strongly support U.N. Special 
Representative of the Secretary-General (SRSG) for Libya Ghassan 
Salame's Action Plan for Libya, which offers a roadmap for helping 
Libyans negotiate amendments to the LPA and make the necessary 
preparations for credible national presidential and parliamentary 
elections in 2018.
    Since unveiling the Action Plan in September, SRSG Salame has 
convened a joint committee composed of representatives of the Libyan 
House of Representatives (HoR) and the advisory State Council for a 
series of meetings to discuss amendments to LPA provisions on the 
structure of Libya's transitional executive government and security 
structures. In an important step forward, the HoR voted to approve SRSG 
Salame's compromise package of amendments in November. While State 
Council leadership has so far withheld its approval, we understand many 
members of the State Council support the proposal. We are urging all 
Libyans and the international community to engage constructively with 
SRSG Salame and fully support his efforts to broker final agreement on 
a package of amendments.
    SRSG Salame envisions the Action Plan's second step as a National 
Conference bringing together a broader range of Libyan actors for 
expanded reconciliation talks. The Action Plan also calls for 
simultaneous efforts to finalize a new Libyan constitution and lay the 
technical groundwork for elections in late 2018. Prime Minister Fayez 
al-Sarraj and other Libyan leaders have also called for elections in 
2018. The United States continues to urge Libyan leaders on all sides 
to take part in dialogue and refrain from military confrontation. Much 
work remains necessary to bring the parties to a workable compromise, 
but only a political solution and a peaceful transition can provide 
stability for the Libyan people.

    Question 19. Do you believe the State Department should restart a 
diplomatic presence inside Libya? Are we able to effectively engage 
without one?

    Answer. Diplomatic engagement inside Libya is important for U.S. 
interests. Ambassador Peter Bodde met with Libyan Government of 
National Accord (GNA) Prime Minister Fayez al-Sarraj in Tripoli on May 
23--the first such visit by a U.S. diplomat since 2014. The visit 
demonstrated the continued commitment of the United States to political 
reconciliation in Libya and to our ongoing partnership with Prime 
Minister al-Sarraj's Government to defeat ISIS and other terrorists and 
support the Libyan people's efforts to build a more stable, unified, 
and prosperous future.
    We continue to plan for resuming our operations in Libya when 
security conditions permit. In July 2014, our Embassy in Tripoli 
suspended operations due to security concerns and staff initially 
relocated to the U.S. Embassy in Valetta, Malta as the Libya External 
Office (LEO). In 2015, the LEO moved to its current location in 
Tunisia, where it operates as a separate mission hosted by the U.S. 
Embassy in Tunis. Despite their status as a ``mission-in-exile,'' 
Ambassador Bodde and his dedicated team at the LEO engage with a wide 
range of Libyan interlocutors and international partners in Tunis and 
throughout the Middle East and Europe in order to advance U.S. 
interests in Libya. When security conditions permit, increased 
diplomatic engagement within Libya will undoubtedly bolster these 
efforts.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Hon. Nathan Sales by Senator Edward J. Markey

Other Areas for Potential ISIS Expansion in Southeast Asia--Burma
        Southeast Asia is also vulnerable to ISIS expansion, especially 
        in Thailand, Malaysia, Singapore, the Philippines, Indonesia, 
        and Burma.
          The Center for Strategic and International Studies wrote 
        after Burma's security forces began so-called ``clearance 
        operations'' in the Rakhine State that ``The repression visited 
        upon the Rohingya by a powerful government largely consisting 
        of leaders from another religion present a potential, 
        transnational flash-point for jihadi-Salafi organizations.''
          The United Nations Human Rights Council resolution yesterday 
        condemning ``the very likely commission of crimes against 
        humanity'' by Burma's security forces and others against 
        Rohingya is a good first step toward accountability, but I 
        remained concerned about the potential for radicalization among 
        the Rohingya in Burma and in the camps in Bangladesh.

    Question 1. Ambassador Sales, are you concerned that the refugee 
camps in Bangladesh and the displaced populations in Burma could become 
fruitful recruiting grounds for ISIS or similar violent extremist 
groups?

    Answer. We are concerned about terrorist groups' ability to recruit 
and inspire new followers from vulnerable populations, and we know that 
ISIS and Al-Qaeda are seeking to exploit the Rohingya crisis. For these 
reasons, we are actively engaging with the Government of Burma and the 
international community to address the situation in northern Rakhine 
State and allow Rohingya refugees who have fled to Bangladesh and 
others internally displaced in Rakhine State to return to their homes 
in safety and with dignity. We are encouraged by the November 23 
voluntary repatriation agreement between Bangladesh and Burma and 
encourage their bilateral cooperation to continue to ensure the 
voluntary, dignified return of the displaced.
    The United States continues to support Burma's nascent democracy 
and we look to the Burmese government to commit to bringing long-term 
peace and security to Rakhine State by implementing the recommendations 
of the Annan Commission report. We are ready to support these efforts 
and we also urge the Government of Burma to cooperate with the UN fact-
finding mission.

    Question 2. To what extent do draconian responses by the security 
forces reinforce the ISIS narrative that the modern world, led by the 
United States, is at war with Islam and Muslim people?

    Answer. We are concerned about violent extremist groups' ability to 
leverage real or perceived grievances to recruit vulnerable populations 
to join terrorist groups or commit acts of violence. Real or perceived 
targeting of Muslim groups reinforces the victimization narratives that 
terrorist organizations use for recruitment. Conversely, U.S. actions 
that empower disenfranchised groups can undermine efforts to exploit 
these narratives. To this end, the State Department is coordinating 
efforts to publicly highlight U.S. humanitarian assistance to support 
refugees, displaced persons, and other affected communities, which 
totals nearly $151 million since the start of FY 2017. In Bangladesh, 
the Department is highlighting the United States' close coordination 
with UN agencies, other humanitarian organizations, and donor 
governments to support Rohingya refugees who have fled atrocities in 
Burma.

    Question 3. What can the United States do to help Burma and other 
partner governments in Asia, the Middle East, and Africa address the 
underlying grievances that have fueled insurgencies among their people?

    Answer. When working to prevent or mitigate the drivers of conflict 
and violence, we first stress to our partners that political 
marginalization, discrimination, the treatment of political opposition 
as terrorists, repression of human rights, corruption, lack of redress 
or accountability for past human rights violations or abuses and other 
governance-related factors can create rich conditions for fueling 
conflict and terrorism. We stress that harsh counterterrorism and other 
security responses that violate or abuse human rights can significantly 
exacerbate conflicts and raise the risk of violent extremism. We also 
urge partners to investigate and hold accountable those responsible for 
human rights violations and abuses because failure to redress human 
rights violations and abuses, particularly those committed by security 
forces, undermines security in partner countries and, ultimately, in 
the United States. Conversely, fostering good governance, building 
disciplined and accountable security forces that partner with local 
communities, and inculcating respect for human rights and fundamental 
freedoms, tolerance, and social inclusion are critical bulwarks against 
violence and terrorism and necessary complements to countering 
terrorist activities.
    The United State is working to understand and address the 
underlying grievances that have fueled insurgencies, terrorism, and 
other forms of violence across the globe, including in the Sahel, East 
Africa, Iraq, Southeast Asia, and other regions. Some countries lack 
the will or capacity to effectively address underlying drivers of 
violence in accordance with good practices while fully respecting human 
rights. Wherever possible, we engage such countries to move them in the 
right direction. When countries are reluctant to frankly identify and 
address drivers of violence, effective diplomacy is the first priority. 
When partner countries have the political will but lack human and 
financial resources, we support and enhance those capacities. These 
measures may include civil society-focused programs, governance and 
security sector reforms designed to help partners conduct their work in 
an accountable and transparent manner, and amplifying credible voices 
to speak out against violent extremism. We also engage partner nations 
to address the rehabilitation and reintegration of former violent 
extremists, including by working with the criminal justice sector and 
prison systems in these regions.
Syria and Russia--ISIS No Longer a Threat?
        Russia claimed today that Syria had been completely liberated 
        from ISIS. Despite Syria's Foreign Ministry statement earlier 
        in November that with ISIS effectively defeated, the U.S. 
        presence in Syria was in violation of international law, the 
        Pentagon yesterday announced that the U.S. military mission in 
        Syria would continue until areas reclaimed from ISIS are 
        stabilized.

    Question 4. Please describe the nature of our conversations with 
the Russians, especially with respect to Russia's claim it can 
challenge the continued presence of U.S. forces in Syria. What is 
Russia's troop presence in Syria?

    Answer. Our priorities in Syria are the enduring defeat of ISIS and 
degrading al-Qa'ida, and de-escalating the Syrian conflict to create 
the necessary space for a political solution to the crisis. The 
Coalition deconflicts the complex and congested battlespace over 
eastern Syria with Russian officials. Communication between the 
Coalition and the Russians ensures the safety of our collective 
aircrews and assets, and supports our operations on the ground. The 
deconfliction line enables counter-ISIS operations by all parties while 
ensuring physical separation between the various forces fighting ISIS. 
Ultimately, this deconfliction allows us all to focus on our mission: 
to defeat ISIS.
    The President directed that we coordinate with Russia to enhance 
the pre-existing deconfliction mechanism and de-escalate the broader 
conflict in Syria--both of which dramatically accelerated the speed and 
efficiency of the counter-ISIS campaign. We support any genuine effort 
to de-escalate the levels of violence in Syria. Efforts such as the 
southwest ceasefire agreement -negotiated by the United States, Jordan 
and Russia--are instrumental in reducing violence and setting the 
necessary though still not sufficient foundation for a political 
solution through the Geneva process. The United States actively 
supports efforts by Staffan de Mistura and his team to facilitate the 
UN-led talks in Geneva. We will continue to support his work and call 
upon Russia to help ensure the Syrian regime's serious participation in 
the Geneva process, in line with the spirit of the U.S.-Russia joint 
November 10 Presidential statement issued in Vietnam.
    Russia's public comments about removal of their forces do not 
change U.S. priorities in Syria and the broader region. Open source 
reporting indicates that, at present, Russian forces in Syria number 
around 4,000 to 5,000 personnel. Our focus in Syria remains the 
enduring defeat of ISIS and support for a credible and enduring 
political solution. The fight is not over. Hard work remains to ensure 
ISIS's lasting defeat. A continued Coalition military presence in Syria 
is required to root out and destroy remaining pockets of ISIS and to 
stabilize liberated areas to ensure ISIS is unable to re-emerge.

    Question 5. With ISIS in retreat, what does stabilization look like 
in Syria? What will ``enduring defeat of ISIS'' entail? What are the 
conditions on the ground that would point to ``enduring defeat?''

    Answer. Coalition-backed military operations have liberated nearly 
all of the territory ISIS once controlled in Syria and Iraq and freed 
an estimated 7.7 million people from ISIS's oppressive rule. ISIS has 
been unable to recapture a single inch of the over 106,000 square 
kilometers of territory liberated in Coalition-backed military 
operations including important Syria urban areas Manbij, Tabqa, and 
Raqqa. Globally, we are enhancing cooperation and border security, 
aviation security, law enforcement, financial sanctions, counter-
messaging, and intelligence sharing to prevent ISIS from carrying out 
attacks in our homelands. However, realizing that military operations, 
while necessary, are insufficient to achieve ISIS's enduring defeat, 
the U.S.-led Global Coalition to Defeat ISIS is committed to helping 
stabilize liberated communities and preventing ISIS's reemergence.
    The United States and our Coalition partners are now working with 
an array of local actors, including the Raqqa Civil Council, to 
coordinate and implement stabilization efforts. We are funding efforts 
to remove explosive remnant of war and to restore essential services, 
including water, power, and some health and education services. We are 
also maintaining needs-based humanitarian support. The longer it takes 
to establish the conditions that allow for the return or local 
integration of internally displaced persons (IDPs), the higher the risk 
for a potential re-emergence of ISIS or another violent extremist 
organization.
    We are also training local security forces to hold liberated 
terrain, which enables stabilization activities to commence and 
provides stability conducive to the voluntary return of refugees and 
IDPs. To date, we have trained over 2,500 members of the Raqqa Internal 
Security Force. These forces will be a vital component of our partnered 
forces' efforts to combat a likely ISIS insurgency in the weeks, 
months, and even years ahead.



                               __________


     Responses to Additional Questions for the Record Submitted to 
  Hon. Joan Polaschik and Hon. Nathan Sales by Senator Cory A. Booker

        In recent years, hundreds of thousands of migrants from West 
        Africa, have been loaded into the backs of pickup trucks for 
        the deadly journey towards Libya--and eventually Europe.
          But last year, the European Union began working with the 
        Government of Niger and others in the Sahel to crack down on 
        such smuggling.
          A recent EU report notes that while there has supposedly been 
        a reduction in migrants, ``the decrease registered does not 
        necessarily translate into a one-on-one reduction of the 
        overall flow reaching Libya, as new routes by-passing the 
        reinforced border controls are being exploited. These new 
        routes are more difficult to use and riskier, leading . . .  
        higher risks for the migrants.''

    Question 1.  How would you assess both U.S. and EU efforts to deal 
with the underlying causes of irregular migration in the Sahel and West 
Africa?

    Answer. The search for better economic opportunities and large, 
well-established West African diaspora populations in Western countries 
draw irregular migrants. The underlying causes for irregular migration 
from West Africa and the Sahel include the huge youth population bulge; 
limited economic opportunities; restricted political freedoms; 
instability and chronic insecurity; and easy access to information 
through social media portraying migration as positive. West Africa 
includes some of the least developed countries in the world. Assisting 
countries in West Africa and the Sahel to reduce the disparities with 
more developed countries is a long-term project with many challenges.
    The United States continues to encourage West African governments 
to adopt policies that will lead to inclusive economic growth and 
reduced incentives for migration. We also help resolve conflict, combat 
terrorism, and enable safe and dignified returns of the displaced. We 
build the capacity of governments to manage their migration flows, 
reduce vulnerabilities and exploitation of migrants and counter 
trafficking in persons. U.S. assistance in West Africa and the Sahel 
addresses the challenges of irregular migration through strengthening 
natural resource management; promoting conflict mitigation and 
prevention; enhancing agricultural production and market access; and 
promoting improved nutrition and health.
    The EU has focused on building law enforcement and border 
protection capacity, working with host governments to reduce irregular 
migration, improving migration management, and strengthening 
resilience. The EU also prioritizes programs that provide economic 
opportunities and more open societies in Africa, and those that address 
the humanitarian challenges posed by criminals and traffickers who prey 
on migrants during the long journey to Europe. At the recent AU-EU 
Summit, European countries noted both the responsibility of African 
governments to provide a favorable environment and the responsibility 
of the EU to assist.

    Question 2.  My concern is that such programs to clampdown on 
smuggling may not address the reason such migrants are making the 
treacherous journey. Do such programs simply increase the cost and 
risks for these migrants?

    Answer. All sovereign nations must maintain control over their 
borders and identify, investigate, and prosecute human smuggling and 
trafficking. Human traffickers and smugglers put the lives and safety 
of those they are transporting at risk. Employing human smugglers is an 
inherently risky endeavor--which can lead to death and injury and the 
exposure of migrants to other forms of crime. In addition, some human 
traffickers pose as smugglers but instead subject intending migrants to 
forced labor or sexual exploitation. Interdicting smuggling and 
trafficking through effective border security prevents harm to 
trafficking victims and intending migrants, in addition to improving 
overall national and regional security. At the same time, we urge 
countries to avoid punishing trafficking victims for crimes committed 
as a result of being subjected to trafficking. We emphasize to 
governments around the world that efforts to stem the flow of migrants 
should also proactively reduce and prevent vulnerability to 
exploitation such as human trafficking; identify and protect potential 
trafficking victims; and provide victims with appropriate services. 
Opportunities for legal migration drastically reduce the costs and 
risks that migrants face--and represent the preferred method of 
migration--subject to the sovereign right of all nations to decide if, 
how, and for what purposes they will accept migrants. Efforts to clamp 
down on smuggling go hand-in-hand with longer-term U.S. objectives of 
helping countries develop economic opportunities, promoting stability, 
and increasing political freedom.

    Question 3.  We know that while Sahel countries like Mali and Niger 
continue to experience violence, poverty, and lack of institutional 
capacity, North African countries, such as Libya, will feel the 
effects. What efforts are you taking to disrupt traffickers in the 
Sahel and create a more enabling environment for legitimate economic 
activities?

    Answer. The United States recognizes that this complex challenge 
requires a multifaceted approach, and we are working with our Sahelian 
partners to disrupt and prosecute traffickers and smugglers, improve 
economic opportunities for youth and others in the region, and enhance 
stability and governance.
    Most law enforcement agencies in the region are weak, under-
resourced, and face severe challenges in addressing this multifaceted 
problem across an area of more than a million square miles. Through 
training and mentorship, we help law enforcement partners strengthen 
their institutional foundations, including strategy and coordination, 
and mobilize their scarce human and physical resources to meet growing 
threats. We are also providing assistance to improve connectivity and 
peer learning among law enforcement officials in the region.
    Partnerships with Niger and Mali that began as part of the Security 
Governance Initiative (SGI) focus on enhancing the management and 
oversight of defense, law enforcement, and justice institutions for 
these governments to more efficiently, effectively, and responsibly 
provide security and justice services to the population. For example, 
through SGI, Niger has undertaken reforms to improve the management of 
its human, financial, and material resources, and to ensure that 
defense and law enforcement resources align to meet strategic 
priorities. Similarly, SGI supports Mali to improve defense and police 
human resource management systems, as well as defense planning and 
logistics capabilities; the country is making some small signs of 
progress despite the continued insecurity and peace process challenges.
    As part of the Sahel Development Initiative (SDI), USAID is 
designing programs to reduce vulnerability to violent extremism (VE) in 
the Sahel by enhancing government legitimacy and increasing economic 
opportunities. SDI targets both communities most at risk of VE 
recruitment and influence and the broader enabling environment that 
allows VE to flourish.
    We also support international organizations, including the 
International Organization for Migration and the U.N. High Commissioner 
for Refugees in the region to provide humanitarian assistance and 
protection to vulnerable migrants and refugees, including emergency 
evacuations of stranded and abused migrants out of Libya to Niger and 
other countries in the Sahel. Other activities related to migrants 
include medical screening and consultation, training for authorities on 
humane migration practices, protection monitoring of detention centers, 
collaboration with governments on the U.N. Migration Working Group, and 
rescues at sea and in the desert.
    In Tunisia, the birthplace of the Arab Spring, 86 percent of 
citizens say that democracy, despite its problems, remains the best 
system of governance--even more than the 70 percent polled after the 
Arab Spring. Yet, Tunisia was also the source of the greatest number of 
ISIS foreign fighters, with over 4,000 at the height.
    What concerns me, however, is that over 40 percent of the 
population is under the age of 24 and suffers from 35.5 percent 
unemployment, despite largely being well-educated. As we've seen, 
however, without opportunities this youth budge can turn towards 
extremism. Even the CIA warns, ``In the near term, Tunisia's large 
number of jobless young, working-age adults . and the ongoing lack of 
job creation and skills mismatches could contribute to future unrest.''

    Question 4.  We cannot afford to lose focus on improving the 
livelihoods of Tunisia's youth: Ambassador Sales, can you speak about 
how the CT bureau ranks youth as a priority in addressing extremism and 
your specific engagement with Tunisia on the issue of foreign fighters?

    Answer. Engaging vulnerable groups, including youth, is a critical 
element of our countering violent extremism (CVE) efforts in Tunisia 
and elsewhere. We regularly engage the Government of Tunisia on this 
issue as well as the issue of foreign terrorist fighters (FTFs). We 
support a variety of locally-implemented programs that are designed to 
address these challenges. Some examples include an NGO-implemented 
grant to foster critical thinking skills among youth around the country 
to help them resist terrorist narratives and recruitment. Another 
program guards against recruiters' efforts to use local cafes to target 
vulnerable, unemployed youth. We see value to supporting such Tunisian-
developed, Tunisian-led programs that have credibility in the local 
community.
    We also have a number of training and capacity-building programs to 
help Tunisian law enforcement address FTF-related challenges. These 
include advanced counterterrorism investigative training, support to a 
fusion center to do FTF-focused analytical work, prosecution and 
adjudication of terrorism cases, and border security training designed 
to stem the movement of FTFs. These programs are implemented by the 
Bureau of Diplomatic Security's Office of Anti-Terrorism Assistance, 
the FBI, the Overseas Prosecutorial Development Assistance and Training 
Program, and the International Criminal Investigative Training 
Assistance Program.

    Question 5.  Ambassador Polaschik, more broadly how is the State 
department, and specifically USAID, engaging with Tunisia to encourage 
further reforms and U.S. investments that spur economic opportunities?

    Answer. A top U.S. priority is to encourage Tunisia to implement 
necessary economic reforms, including restructuring its banking sector 
and reducing its public sector expenditures, in coordination with its 
$2.9 billion IMF Extended Fund Facility loan program. These reforms are 
the key to spurring long-term, private sector-led economic development 
and addressing the economic grievances that sparked the 2011 
revolution, including unemployment rates that range from 15 percent to 
over 30 percent in some regions.
    Since the revolution, the United States has provided $418 million 
in assistance to encourage Tunisia's economic growth and reform. In 
addition, the United States has granted Tunisia access to nearly $1.5 
billion in financing at favorable rates through three Sovereign Loan 
Guarantees, the most recent in August 2016.
    A primary focus of U.S. assistance, implemented by USAID, is to 
promote business growth, competitiveness, and economic inclusiveness 
through projects that bolster small and medium enterprises (SMEs), 
develop work force skills, and provide technical skills on key economic 
reforms. Specific programs include: the Business Reform and 
Competitiveness Program that has helped create over 20,000 jobs for 
Tunisians; the $100 million Tunisian-American Enterprise Fund which has 
invested $22 million in 19 SMEs to date; a franchise development 
project that paved the way for U.S. franchises to establish themselves 
in Tunisia; and entrepreneurial training and mentoring projects that 
supported the development of small businesses in the interior of the 
country. We also advocate actively for U.S. firms, engaging the 
Tunisian Government on improving the business climate, reducing 
bureaucratic hurdles, and ensuring our companies are treated well so 
they can invest in Tunisia and create economic opportunities that 
benefit both Americans and Tunisians. Finally, the Embassy works with 
universities and the Ministry of Higher Education to encourage the 
development of a culture of entrepreneurship on university campuses as 
well as educational reforms that connect educational institutions and 
the private sector and provide students the skills most needed in the 
job market.

    Question 6.  In October, the Carnegie Endowment released a report 
noting that ``corruption is a destabilizing force in Tunisia, 
inflicting all levels of its economy, security, and political system.'' 
In what ways, if at all are you integrating anti-corruption measures 
into our foreign aid?

    Answer. Promoting good governance and transparency, and 
strengthening the effectiveness of civil society organizations (CSOs) 
and their capacity to hold the Government accountable, are key 
objectives of U.S. assistance in Tunisia.
    To support the Tunisian Government's fight against corruption, the 
United States is providing $2 million to help the Financial Judicial 
Pole, the judicial authority for the investigation, prosecution, and 
adjudication of corruption cases, develop its institutional framework 
and technical capacity to investigate and prosecute financial 
corruption cases in Tunisia. We are also helping the Tunisian 
Government and Tunisian CSOs implement the Open Government Action Plan 
to build trust between the Government, business, and civil society and 
improve the business environment. We are working with Tunisia to 
develop a Millennium Challenge Corporation Compact to help Tunisia 
alleviate poverty and meet good governance and anti-corruption 
benchmarks. Our Embassy in Tunis actively engages Tunisian journalists, 
civil society, and the public on issues of corruption and transparency, 
including by sponsoring expert speaker programs and an information 
campaign focused on U.S. approaches to fighting corruption. Similarly, 
the State Department recently sponsored ten Tunisian civil society 
leaders and government officials to participate in a three week 
International Visitor Leadership Program specifically targeted towards 
improving Tunisian understanding of anti-corruption efforts and 
legislation in the United States.
U.S. Migrant-Related Assistance
        I am sure you have both seen the recent reports, most notably 
        by CNN, on the horrifying videos of West Africans being sold at 
        auctions in Libya, reminiscent of some of the darkest days in 
        the history of mankind.
          These desperate people, seeking better opportunities and 
        fleeing corruption in their homes countries, are now held in 
        debt bondage by smugglers and militias. I can hardly imagine 
        the indignity of being propped up on an auction block, being 
        sold over and over for my labor. It's absolutely sickening and 
        should shake us to the core to act.

    Question 7.  What assistance is the U.S. providing to relieve the 
situation, in terms of humanitarian aid and other migration-related 
assistance?

    Answer. The deplorable conditions of migrants in Libya have 
endangered the lives of thousands of migrants from West Africa, as well 
as migrating refugees fleeing conflict and persecution from Central and 
East Africa. As part of our overall assistance to Libya since the 2011 
revolution, the United States has contributed more than $150 million in 
humanitarian assistance to meet the humanitarian and protection needs 
of internally displaced Libyans, refugees, and vulnerable migrants 
inside Libya. With contributions from the United States and others, the 
Office of United Nations High Commissioner for Refugees, International 
Committee of the Red Cross, and International Organization for 
Migration are responding to the humanitarian situation of Libyans, 
refugees, and migrants through local non-governmental organizations 
such as the Libyan Red Crescent, and conducting detention visits to 
monitor conditions of detained migrants and compliance with 
International Humanitarian Law. The United States is also providing 
emergency assistance to migrants, including those who are victims of 
human trafficking, to help with their return to their home countries.

    Question 8. And what steps has the State Department considered to 
hold the perpetrators of such abuses accountable, including sanctions 
under the Global Magnitsky Human Rights Accountability Act or other 
authorities?

    Answer. We have seen the reports of slavery, trafficking, and other 
human rights abuses in Libya. We strive with all of our partners, 
governmental or otherwise, to hold the perpetrators of human rights 
abuses accountable.
    In an effort to fully and faithfully implement the Global Magnitsky 
Human Rights and Accountability Act, the administration, through a 
Presidential Executive Order (E.O.) issued on December 21, 2017, 
launched a new sanctions regime targeting human rights abusers and 
corrupt actors around the world. In an Annex to the Order, the 
President imposed sanctions on 13 serious human rights abusers and 
corrupt actors. In addition, the Treasury Department's Office of 
Foreign Assets Control (OFAC), acting on behalf of the Secretary of the 
Treasury, in consultation with the Secretary of State and the Attorney 
General, imposed sanctions on an additional 39 affiliated individuals 
and entities under the newly-issued Order. The Department of State 
concurrently submitted the ``Report to Congress Pursuant to the Global 
Magnitsky Human Rights Accountability Act.''
    The interagency engages in extensive dialogue regarding potential 
targets under the E.O., including regular consultation with our 
embassies abroad and our experts here in Washington, NGO's, and 
Congress, to identify persons whose actions meet the E.O. standards of 
significant human rights abuse or acts of corruption. Potential 
designations are assessed as part of a whole of government endeavor and 
implemented in a manner appropriate to achieve our foreign policy 
objectives.
    Our aim is to send a strong message of condemnation that will impel 
the designated individuals to change their behavior and deter others 
from engaging in similar behavior.
    The State Department and DOD have significantly increased security 
assistance levels for Tunisia since the 2011 political transition, and 
in the context of a significant domestic and Libya-based terrorist 
threat.
    Tunisian security forces appear to have improved their capacity and 
internal coordination since the large-scale attacks in 2015 and early 
2016, but at the same time, Tunisia's political leaders have been slow 
to advance structural governance reforms and anti-corruption efforts 
that could help address grassroots grievances that may contribute to 
radicalization.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Hon. Joan Polaschik by Senator Cory A. Booker

    Question 1. Has the emphasis on counterterrorism come at a cost for 
Tunisia's democratic progress and accountability?

    Answer. U.S. policy toward Tunisia focuses on three mutually-
reinforcing goals: encouraging continued democratic progress and good 
governance; helping Tunisia implement economic reforms, spur private 
sector-led growth, and expand economic opportunities; and bolstering 
Tunisia's security and counterterrorism capacity. To deliver on the 
promise of its revolution, Tunisia must achieve progress simultaneously 
in all three of these areas. Because terrorist attacks have the 
potential to undermine Tunisia's economy and its fragile democracy, 
counterterrorism assistance is, in fact, a critical part of advancing 
and supporting Tunisia's democratic progress. By the same token, 
achieving accountability, democratic progress and good governance are 
key to economic progress, maintaining stability, and preventing and 
combatting violent extremism.
    Terrorists seek to exploit perceptions of disenfranchisement, 
limited economic opportunities, and poor governance. In our assistance 
to Tunisia since the revolution, we have employed a balanced approach, 
providing nearly $575 million for security cooperation, as well as $580 
million for encouraging economic growth and economic reform, and over 
$235 million for promoting democracy, good governance and human rights, 
including $90 million for rule of law and security sector reform. By 
providing targeted security assistance to Tunisia, we are bolstering 
the capacity of an impartial force to secure the country's borders, 
conduct counterterrorism operations, and secure an environment in which 
democracy can flourish. Moreover, U.S. assistance programs to Tunisia's 
Ministry of Interior and Ministry of Justice are helping Tunisia's 
civilian security forces become not only more effective, but also more 
transparent, accountable and compliant with international human rights 
standards.

    Question 2.  What have U.S. diplomats messaged to Tunisian 
counterparts regarding the problematic administrative reconciliation 
law, which gives ``blanket impunity'' for civil servants implicated in 
corruption, and other corruption and accountability concerns?

    Answer. The State Department regularly engages with Tunisian 
officials and civil society on democracy and governance issues and the 
importance of transparency and holding officials accountable for 
corruption. We are aware of the concerns raised by some Tunisians about 
the administrative reconciliation law. We are encouraged by the robust 
debate associated with this matter in the Tunisian Parliament and 
broader society.
    More broadly, we maintain an ongoing dialogue with senior leaders 
in Tunisia's executive and legislative branches on the importance of 
continuing Tunisia's democratic consolidation and efforts to meet the 
aspirations for better governance that the Tunisian people expressed 
during the revolution. We re-inforce these messages during regular 
meetings with the independent constitutional commissions which have 
responsibility for investigations into allegations of government 
corruption and other abuses during current and previous political 
regimes. Tunisians demanded an end to corruption, but recent 
International Republican Institute (IRI) polling shows that they remain 
dissatisfied with their government's performance on this important 
issue: nearly 90 percent of Tunisians believe corruption has become 
worse since the revolution.
    Prime Minister Chahed has committed to tackle this problem more 
effectively, and he launched an important, high-profile anti-corruption 
campaign in May. We have supported him and the Tunisian Government as 
they strive to hold individuals involved in corruption accountable. 
U.S. assistance programs also support anti-corruption efforts by 
building the capacity of the judiciary and police, developing jointly 
with Tunisia a Millennium Challenge Corporation Compact that 
prioritizes anti-corruption benchmarks, and building the capacity of 
civil society organizations and journalists to monitor government 
activities and hold government officials accountable.

    Question 3.  To what extent has Tunisia's emergent status as an 
important U.S. counterterrorism partner in North Africa inhibited U.S. 
constructive criticism regarding governance issues?

    Answer. Bolstering our counterterrorism partnership with Tunisia 
has not hindered our continued, constructive engagement on democracy 
and governance issues with Tunisian Government officials and civil 
society members. During the most recent Universal Periodic Review of 
Tunisia, the United States raised concerns regarding lack of 
transparency in investigating security forces abuses, arbitrary 
detentions, and arrests under the state of emergency and 
counterterrorism laws. We also use our annual Human Rights Reports to 
highlight concerns.
    Continued democratic consolidation and implementation of good 
governance practices are vital to ensuring security and stability in 
Tunisia and therefore its effectiveness as a security partner to the 
U.S. Since Tunisia's revolution, we have employed a balanced approach 
to our assistance, providing nearly $575 million for security 
cooperation, as well as $580 million for encouraging economic growth 
and economic reform, and over $235 million for promoting democracy, 
good governance and human rights, including $90 million for rule of law 
and security sector reform.
    We also maintain an ongoing dialogue with senior government 
officials and civil society members about the full range of political 
issues, including Tunisia's progress in achieving its democratic 
consolidation and meeting the aspirations the Tunisian people expressed 
during the revolution.

    Question 4. DOD funding for counterterrorism assistance has 
increased significantly in North Africa in the past decade.
    Transnational Salafist-jihadist organizations as well as ISIS took 
root in Libya following the ouster of Qadhafi. The State Department 
describes Libya as a permissive environment for terrorists and a number 
of terrorist attacks in Tunisia and other areas have been planned in 
Libya or by individuals of Libyan descent.
    Ms. Polaschik, in the hearing, you reiterated U.S. support for the 
U.N. Action Plan in Libya and stated that attempts to impose a military 
solution to Libya's political problems would create opportunities for 
extremists, including the Islamic State.
    What if anything the U.S. is prepared to do to actively dissuade 
such an attempt or respond to any attempts to impose such a solution?

    Answer. The United States has been very clear in our discussions 
with all Libyan parties and our international partners that any 
attempts to impose a military solution or bypass the political process 
will only further destabilize Libya. We have urged Libyans to exercise 
military restraint and engage constructively with U.N. efforts to help 
them reach a political solution, prepare for successful national 
elections, and build unified government and security institutions 
capable of providing security for the Libyan people and partnering with 
the international community to defeat ISIS and other terrorists. 
Renewed civil conflict would set back these efforts and benefit only 
the terrorists.
    The United States has a strong partnership with Libyan Prime 
Minister Fayez al-Sarraj's Government. We cooperate closely with the 
Government of National Accord and its aligned forces against ISIS, and 
we support Prime Minister al-Sarraj's efforts to promote dialogue and 
national political reconciliation. During Prime Minister al-Sarraj's 
visit to Washington in early December, President Trump, Secretary 
Tillerson, and other senior U.S. officials underscored our commitment 
to helping Libyans defeat ISIS and other terrorists, advance political 
reconciliation through the U.N. political process, and build a more 
stable, unified, and prosperous future for the Libyan people.
    The U.N. Security Council's Presidential Statement on Libya on 
December 14 also sent a strong message that the Libyan Political 
Agreement (LPA) will remain the framework for a political settlement 
throughout Libya's transitional period. The Security Council rejected 
efforts to impose incorrect deadlines on the LPA, which threatened to 
undermine the U.N.-facilitated political process and justify 
destabilizing military action.

    Question 5.  How would the United States respond to attempts to 
military-led solution to the political challenges?

    Answer. The United States has been very clear in our discussions 
with all Libyan parties and our international partners that there is no 
military solution to Libya's challenges. Renewed civil conflict will 
only benefit ISIS and other terrorists. The only sustainable solution 
to the political, economic, security, and humanitarian challenges in 
Libya is an inclusive, unified government that can control and govern 
its territory and provide a more stable and prosperous future for the 
Libyan people.
    The United States joined the U.N. Security Council on December 14 
in reaffirming the international community's commitment to a political 
solution based on the Libyan Political Agreement (LPA). We will 
continue to work with our international partners help Libyans advance 
toward political reconciliation through the U.N.-facilitated process 
and stabilize their country.

    Question 5.  What is the State Department doing now to dissuade 
spoilers?

    Answer. The State Department urges all Libyan parties and our 
international partners to fully support the U.N.'s efforts to achieve 
national political reconciliation and restore stability in Libya. We 
are actively involved with all Libyan parties, underscoring that any 
attempts to impose a military solution or bypass the political process 
will only further destabilize Libya.
    We have worked closely with partners on the U.N. Security Council 
to ensure that the international community sends a unified message on 
the need for a political solution in Libya. Since December 6, the 
Security Council's December 14 Presidential Statement reaffirmed that 
the Libyan Political Agreement (LPA) will remain the framework for a 
political settlement throughout Libya's transitional period and 
rejected incorrect deadlines for it. We will continue to work closely 
with our international partners to make clear that any attempts, 
including by Libyan parties, to undermine the Libyan-led, U.N. 
facilitated political process are unacceptable to the international 
community.





                                  [all]
</pre></body></html>
